<html>
<title> - NEW AIRCRAFT IN THE NATIONAL AIRSPACE SYSTEM</title>
<body><pre>[Senate Hearing 109-1157]
[From the U.S. Government Printing Office]


                                                       S. Hrg. 109-1157
 
                          NEW AIRCRAFT IN THE 
                        NATIONAL AIRSPACE SYSTEM 

=======================================================================

                                HEARING

                               before the

                        SUBCOMMITTEE ON AVIATION

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 28, 2006

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

71-841 PDF                       WASHINGTON : 2011

For sale by the Superintendent of Documents, U.S. Government Printing 
Office, Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800;
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 
















       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
             Kenneth R. Nahigian, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
   Samuel E. Whitehorn, Democratic Deputy Staff Director and General 
                                Counsel
             Lila Harper Helms, Democratic Policy Director
                                 ------                                

                        SUBCOMMITTEE ON AVIATION

                    CONRAD BURNS, Montana, Chairman
TED STEVENS, Alaska                  JOHN D. ROCKEFELLER IV, West 
JOHN McCAIN, Arizona                     Virginia, Ranking
TRENT LOTT, Mississippi              DANIEL K. INOUYE, Hawaii
KAY BAILEY HUTCHISON, Texas          BYRON L. DORGAN, North Dakota
OLYMPIA J. SNOWE, Maine              BARBARA BOXER, California
GORDON H. SMITH, Oregon              MARIA CANTWELL, Washington
JOHN ENSIGN, Nevada                  FRANK R. LAUTENBERG, New Jersey
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        E. BENJAMIN NELSON, Nebraska
JIM DeMINT, South Carolina           MARK PRYOR, Arkansas




















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 28, 2006...............................     1
Statement of Senator Burns.......................................     4
Statement of Senator Lautenberg..................................     3
Statement of Senator Rockefeller.................................     2
Statement of Senator Stevens.....................................     1

                               Witnesses

Andersson, Matthew G., Senior Aviation Consultant, Aerospace, 
  Defense, and Transportation, CRA International, Inc............    41
    Prepared statement...........................................    44
Cirillo, Michael A., Vice President, Systems Operation Services, 
  Air Traffic Organization, Federal Aviation Administration......     8
    Joint prepared statement.....................................     9
Iacobucci, Edward E., President/CEO, DayJet Corporation..........    33
    Prepared statement...........................................    34
Pelton, Jack J., Chairman, General Aviation Manufacturers 
  Association; Chairman, President and Chief Executive Officer, 
  Cessna Aircraft Company........................................    36
    Prepared statement...........................................    37
Raburn, Vern, President/CEO, Eclipse Aviation Corporation........    22
    Prepared statement...........................................    23
Sabatini, Nicholas A., Associate Administrator for Aviation 
  Safety, Federal Aviation Administration........................     6
    Joint prepared statement.....................................     9

                                Appendix

Air Transport Association of America, Inc., prepared statement...    57
Honda Aircraft Company, prepared statement.......................    62
Inouye, Hon. Daniel K., U.S. Senator from Hawaii, prepared 
  statement......................................................    53
Response to written questions submitted by Hon. Conrad Burns to:
    Matthew G. Andersson.........................................    55
    Edward E. Iacobucci..........................................    53
    Vern Raburn..................................................    54


                          NEW AIRCRAFT IN THE 
                        NATIONAL AIRSPACE SYSTEM

                              ----------                              


                      THURSDAY, SEPTEMBER 28, 2006

                               U.S. Senate,
                          Subcommittee on Aviation,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:07 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Ted Stevens, 
Chairman of the full Committee, presiding.

            OPENING STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Good morning. My apologies for being late. In 
the last days of any Congress, there are an enormous number of 
things that have to be handled, and conferences. I do 
apologize. And I apologize to you, Senator Rockefeller, for 
being late.
    The Chairman of this Subcommittee will be here shortly to 
take over this hearing. He is at the Armed Services Committee 
meeting, which is an important meeting, and as soon as he can 
get away, he will come.
    The issues we are here to discuss are critical to the 
future of our national aviation and aerospace system. The very 
light jets, or, I have called, the ``mosquito fleet,'' without 
trying to be derogatory at all, will be--soon be a part of our 
daily air travel in our Nation. Just as regional jets vastly 
increased the number of planes in our national airspace, this 
new fleet has the potential to do even greater--to add even 
greater numbers to it.
    The first wave of this fleet is expected to hit the market 
next year, and that increase could revolutionize air traffic--
the air traffic business. At around $2 million each, on an 
estimated basis, these new minijets will be within reach of 
thousands of individuals and companies, and have the potential 
to create a booming air taxi industry.
    Unmanned aircraft are also poised to enter our national 
airspace. They have been used by the military since World War 
II. In those days, as I reminded the Committee recently, pilots 
took those aircraft off, and then they parachuted out, and the 
planes were flown remotely to targets. That is not the 
situation now, of course. Unmanned aircraft play an integral 
part in fighting the wars in which we're involved now, 
particularly the war against the terrorists. And UAVs have the 
potential of being a key line of defense for our first 
responders. We have asked, actually, that they be tested in 
Alaska to determine whether or not they can play a significant 
role in maritime boundary enforcement and protecting our 
fisheries.
    We look forward to hearing from our witnesses today. And we 
urgently hope we can work together to ensure that our National 
Airspace System can, and will, accommodate all manner of new 
aviation transport, as well as face a period of upgrading of 
the whole system itself.
    Senator Rockefeller?

           STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Rockefeller. Thank you, Mr. Chairman.
    I think the UAVs can patrol very well, fishing boundaries. 
It's a good use for them.
    The Chairman. It's a question of icing, Senator. We--they 
generally do not have icing--deicing equipment, and some of 
those spaces which have to be patrolled have an enormous icing 
potential, so----
    Senator Rockefeller. They must have been talking about 
South Carolina.
    [Laughter.]
    The Chairman. The southern coast could easily be done. 
We're talking about the maritime boundary between the United 
States and Russia.
    Senator Rockefeller. I gotcha.
    Next year, this Committee's going to have to reauthorize 
the Federal Aviation Administration. I'm certainly in hopes 
that we will do that. One of the most important challenges we 
have to address is how to make sure our aviation system can 
absorb all growth in traffic, any growth in traffic.
    Now, the FAA predicts that commercial air travel is 
scheduled to increase by nearly 50 percent over the next 10 
years. Compounding the uncertainties surrounding the ability of 
our aviation system to meet future needs is the potential 
impact of new types of aircraft on the aviation system.
    I've been working on a different--not mosquito jet, but 
it's a different kind of jet--for 15 years, with Taiwan, 
something called Sino Swearingen, and it's completely a new 
innovative, small business jet, but it's not what we're talking 
about here. And I'm pleased to say that it's certified. I know 
that in addition to new business jets coming onto the market, a 
number of innovative kinds of small aircraft, called very light 
jets, or microjets, are in the process of certification or 
already in production.
    I confess to you that I'm mystified about this phenomenon, 
and that's why these two gentlemen are sitting before us, so 
that--to demystify all of this.
    These new planes, whether they're small business jets or 
very light jets, have the potential to be--not necessarily, but 
the potential to be very disruptive to the aviation system. I 
do not use that term ``disruptive'' in a pejorative sense. I'm 
a strong supporter of general aviation. I would not have spent 
all those years working on that project with Taiwan if I was 
not that way. But I am concerned that our aviation system is 
not prepared to handle the impact of all categories of new 
jets, and particularly these microjets.
    Now, granted, they fly at 41,000 feet, or they say they do. 
On any given day, as many as two-thirds of all airplanes in the 
sky are, in fact, general aviation planes. Most people don't 
know that. And it becomes very important in all matters, 
including airport security.
    And general aviation represents about 15 percent of the 
aircraft interacting with our air traffic control resources. 
However, the introduction of these new aircraft could alter how 
general aviation impacts the aviation system. We're all--we all 
recognize that the very light jets will have to use air traffic 
control system. They're taxis that are going to be under FAA. 
Whether the introduction of these planes into the system is 
gradual or explosive, the fact is that the composition of the 
planes in the sky is changing, the nature of air travel is 
changing. We must make sure, in our reauthorization, that the 
FAA has the tools and the resources to adapt to this changing 
environment.
    And I'm worried about resources. I'll get to that in my 
question period.
    The other issue I want to raise today is that we must 
consider security issues associated with an increase in general 
aviation traffic. I know the general aviation community does 
not see itself as a risk. I differ from them in that respect. 
We must make sure that the influx of small jet aircraft flying 
from hundreds of small airports into national airspace does not 
open up a new hole in our system of the--aviation security.
    So, we have a lot of challenges, and we're going to have an 
interesting discussion this morning.
    Thank you, Mr. Chairman.
    The Chairman. Well, thank you.
    Senator Lautenberg, do have an opening statement?
    Senator Lautenberg. A short one, Mr. Chairman, thank you.

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. We really need to hold this hearing on 
the impact of very light jets on our aviation system. One 
hundred microjets could take flight by year's end. That's 
according to the FAA. Four hundred to five hundred could take 
to the skies over the next decade, for a total of almost 5,000 
by 2017. These planes hold great potential to fly people into 
American cities and towns that they had trouble reaching 
before. But before we fly into the future, we've got to resolve 
some problems concerning the present and the past.
    Before we put a new plane in the sky, we ought to look at a 
record that we have about some airplanes that we sent up 
before, more than 40 years ago, the MU-2 Mitsubishi twin 
turboprop plane. Twenty-five percent of those planes have since 
been involved in a serious series of fatal crashes--with these 
three crashes alone, this--where--three crashes this summer. 
But if you ask FAA about the MU-2, they'll say that all systems 
are go, and that the problem is pilot error. Before we consider 
a new airplane, we've got to have the courage to look into 
what's taken place with the MU-2.
    And, second, before we put a new plane in the sky, we've 
got to see the effects of that on the aviation system. The 
equipment in our towers is outdated. The number of controllers 
in those towers is too low. We've already had 1,081 fewer 
controllers in our towers than we did 3 years ago. And 70 
percent of those controllers are eligible for retirement by 
2011. So, as the workload increases, so do the number of people 
who plan to retire.
    And I think it's fair to say that the judgment is that it 
takes 4 years to train a controller fully, and yet the FAA has 
still not developed a plan to hire new staff for our control 
towers.
    At the same time 760 million people fly within the United 
States every year. By 2015, we're going to hit 1 billion 
passengers. So, before we consider new aircraft, we need full 
controller staff to handle the planes that are currently in the 
sky. We saw the tragic results of controller shortages recently 
in Kentucky. In August, Conair Flight 5191 crashed, 49 people 
lost their lives. Only one air traffic controller was on duty, 
and that's contrary to Federal Aviation Administration policy.
    So, while the NTSB continues its investigation, we owe it 
to the public to find out why the FAA is not meeting its own 
standards. Now, I've asked the Subcommittee, Mr. Chairman, for 
a hearing specifically on the Kentucky crash and whether the 
FAA is properly staffing air traffic control facilities for our 
future. So, we have not yet been able to have that hearing, but 
I hope, at the earliest opportunity, that we'll do that. And 
so, before we consider a new plane, I urge the Subcommittee to 
act.
    Thank you very much, Mr. Chairman.
    The Chairman. Well, Senator, I think that's a very unfair 
statement.
    Senator Lautenberg. Perhaps----
    The Chairman. I think this system is working. We've had 
enormous new entries. We don't put one plane in the sky. 
They're put in the sky by private people, by companies who try 
to enter the system. The government doesn't put anybody in the 
air. We can't determine--we've got to prepare the system so it 
can take on this new, coming addition to the system. It's not 
something that we--where we can say, ``You can't do it.'' It's 
going to happen. So, I really think the political statement, at 
this time, at--when we're trying to find out what the facts are 
concerning how to deal with this new system----
    Senator Lautenberg. Mr. Chairman----
    The Chairman.--is absolutely wrong.
    Senator Lautenberg. Mr. Chairman, if we're going enter into 
a debate, I'm going to ask for a chance to respond.
    The Chairman. You can have----
    Senator Lautenberg. I didn't----
    The Chairman.--all the time you----
    Senator Lautenberg. I didn't----
    The Chairman.--want to respond, but----
    Senator Lautenberg. I didn't----
    The Chairman.--that's an unfair statement.
    Senator Lautenberg. I didn't say----

                STATEMENT OF HON. CONRAD BURNS, 
                   U.S. SENATOR FROM MONTANA

    Senator Burns [presiding]. Order.
    Senator Lautenberg. Mr. Chairman, now, you weren't in the 
room, so I want to have an opportunity to respond to an 
accusation that was made that I suggest that the system isn't 
working. Not at all. It works. I spend a lot of time in the 
sky, and I know you're a pilot, but I would tell you this, that 
there are shortages. I go to Newark Airport. That's one of the 
busiest in the country. We're short 10 percent. We're short 
almost a hundred FAA controllers in that facility alone. That's 
a lot of----
    The Chairman. Let's go to the floor and debate----
    Senator Lautenberg.--a lot of people.
    The Chairman.--this. We don't want--you said we can't put 
another plane in the sky.
    Senator Lautenberg. Well----
    The Chairman. Those were your words, Senator.
    Senator Lautenberg. All right, I'm sorry, an error. We're 
talking about TSA, at the--five controllers short.
    Senator Burns. If I could--if I could assume a little 
control here----
    [Laughter.]
    Senator Burns.--get my hand on the stick and the ``go'' 
knob.
    Thank you all for your opinions. And I'll just make my 
statement. How's that? Is that all right with the rest of the--
--
    Senator Lautenberg. You're in charge.
    Senator Burns.--Committee? Thank you very much.
    I want to thank the folks who will be showing up today. 
We're going to focus on a different situation, as we are coming 
up a year away from reauthorizing the FAA. And I think we're 
going to talk about some things that are very, very--will be 
very, very important in that reauthorization in how we handle 
our air traffic.
    We're going to be talking about very light jets today, and 
UAVs, and we'll review the information of developing, 
certifying, selling, and flying these new aircraft types, along 
with the challenges of integrating them with the current 
aviation system in a safe manner. And I would tell the--I want 
to emphasize the safe manner, because that's what we do, we err 
on the side of safety.
    The introduction of potentially large numbers of very light 
jets into the National Airspace System and the request from 
industry and government agency for speedy certification of 
certain UAVs to operate in U.S. airspace raises numerous short- 
and long-time--or long-term policy and safety issues for the 
Federal Aviation Administration, and, of course, this 
Committee.
    In addition, earlier this year we held a hearing on the 
Joint Program and Development Office, who is assigned the task 
of developing the Next-Generation Air Transportation System. It 
is important we start to understand the impact of the very 
light jets and the UAVs, what they will have on our aviation 
traffic. How will these new aircraft interact with the current 
system? Will some of the new aircraft types simply replace the 
current operations? Well, I will tell you, those are big, big 
questions.
    To date, there has been a lot of speculation and back-and-
forth about the actual impact in the number of aircraft that we 
should anticipate. On one hand, commercial aviation interests 
have argued that, based on the very optimistic, very light jet 
forecast, those jets will clog our air traffic control system 
increase congestion, and increase costs, and not pay their fair 
share of the costs. And, on the other hand, general aviation 
interests have generally maintained a more conservative 
forecast of these light jets, and argue that the modest 
additional aircraft can easily be accommodated into the 
National Airspace System, as they are today. We hope to clarify 
some of those differences today. Not all of them, because the 
questions are too big. Ultimately, the free market will 
probably have the final say.
    In addition, like many of my colleagues, I'm interested in 
the--effectively utilizing sophisticated UAVs to improve our 
border defense, wildfire-fighting and capabilities, among other 
uses. The bottom line is, where do we need to do it? And can we 
do it safely and create a smooth and noncumbersome integration 
of the UAVs into the general aviation and commercial aviation 
communities? And I couldn't ask for a better Ranking Member on 
this Subcommittee than Senator Rockefeller, and we're going to 
pursue this with a great deal of energy and vigor, and we'll--
and we hope that we'll come up with some answers.
    Today, we're happy to have Mr. Michael Cirillo, who is Vice 
President of System Operations Services of Air Traffic 
Organization for the FAA, and Mr. Nicholas Sabatini. I was 
wondering if--that's all they're hiring over there nowadays, I 
suppose, huh?
    [Laughter.]
    Senator Burns. I've had the pleasure of meeting both of 
these gentlemen, and they are looking at monumental questions, 
and trying to answer them. And we appreciate both of you coming 
today.
    Mr. Cirillo, we will hear your testimony first.
    Oh, Mr. Sabatini is going to start, OK. All right. Thank 
you.
    Mr. Sabatini?
    And I assume you've made your statement and everything.
    Senator Rockefeller. I did. But I can make it again.
    [Laughter.]
    Senator Burns. No, they didn't want to hear mine the first 
time.
    Mr. Sabatini, please.

               STATEMENT OF NICHOLAS A. SABATINI,

          ASSOCIATE ADMINISTRATOR FOR AVIATION SAFETY,

                FEDERAL AVIATION ADMINISTRATION

    Mr. Sabatini. Good morning, Chairman Burns, Senator 
Rockefeller, and Members of the Subcommittee.
    I am pleased to be here this morning to dispel any concerns 
you may have with certification and regulations regarding the 
introduction of new aircraft into our Nation's airspace. 
Together with my colleague Mike Cirillo, we represent every 
step in the process of the successful integration of new 
aircraft into the National Airspace System, from certification 
of the airframe to certification of the pilots to the 
introduction of the high-tech tools that have enhanced the 
safety of operations and made our air traffic control 
infrastructure as robust and flexible as it has ever been.
    The system is in place today to accommodate the entry of 
new aircraft into the National Airspace System. This is nothing 
new for the FAA. It is our day-to-day business. We have 
established systems in place to assure a safe introduction of 
aircraft, no matter the size, speed, performance capability, 
manned or unmanned. From when FAA's predecessor agency 
certified the first Buhl Airster in 1927 to the introduction of 
the Boeing 707 in the late 1950s and the dawning of the Jet Age 
in the 1960s, FAA's business has been to successfully 
assimilate new aircraft into the NAS.
    When the Boeing 707 began its transcontinental flights in 
the 1950s, the average airspeed of a passenger aircraft more 
than doubled overnight, from about 220 knots to more than 500 
knots. FAA was able to successfully mix the Boeing 707 into a 
system largely populated with piston-powered, propeller-driven 
aircraft. And this transition into the Jet Age took place with 
an infrastructure that was, at that time, 50 years old. The 
system is much more robust today, with better technology, more 
precision, and greater flexibility than any time in our 
history.
    FAA has tried-and-true mechanisms and controls in place to 
assure the safe introduction of new aircraft, and nothing 
indicates to us that the introduction of VLJs or unmanned 
aircraft will be as operationally transformational as the 
introduction of jets.
    The FAA has long-established operating procedures that 
ensure different types and vintages of aircraft are operated at 
compatible airspeeds in congested airspace or while en route to 
and from the high-altitude structure. We have done it time and 
again over the course of FAA's history, and the introductions 
have proven uneventful. We know how to do this.
    In addition, by the time a new aircraft is ready for its 
entry into service and the domestic airspace, FAA engineers, 
pilots, and inspectors have been over every inch of the design, 
production, operating procedures, flight envelope, training 
requirements, and how to maintain the aircraft's continued 
airworthiness. FAA also certifies the pilots. We have 
established mechanisms to assure that pilots meet proficiency 
and medical standards for the safe operation of aircraft. 
Furthermore, with new, sophisticated aircraft, we have 
increased emphasis on pilot training to help pilots develop the 
skills and in-depth systems knowledge to assure safe operating 
procedures for these aircraft.
    In addition, we certify air traffic procedures, in 
conjunction with the Air Traffic Organization, based on the new 
aircraft size, speed, and capabilities to assure safe operating 
environment.
    Today's aircraft enter a more sophisticated, 
technologically advanced, and precise system than ever before. 
Aircraft avionics are more advanced, as well, with more precise 
autopilot and altimetry, and improved navigational systems, 
which allow for procedures like RVSM. From beginning to end, 
nothing is left to chance.
    A large part of the unprecedented safety record that the 
U.S. is now enjoying is due to the synergistic partnering of 
industry, academia, and government, recognizing that we all 
share the same goal: aviation safety. This cooperation is a 
large reason why the United States aviation system is the envy 
of the world. It is why our citizens can fly with such 
assurance of safety.
    Thank you for the opportunity to speak to you today, and I 
now would like to turn the mike over to my colleague Mike 
Cirillo, who will talk about the ATO and their plans to 
integrate these new aircraft into the air traffic control 
system.
    Senator Burns. Mr. Cirillo, thank you very much for coming 
today. We appreciate it and we look forward to your testimony. 
Now, if you go over 5 minutes, why, if you can consolidate your 
statement, that would be fine, but your full statement will be 
made part of the record. And thank you for coming today.

        STATEMENT OF MICHAEL A. CIRILLO, VICE PRESIDENT,

 SYSTEM OPERATIONS SERVICES, AIR TRAFFIC ORGANIZATION, FEDERAL 
                    AVIATION ADMINISTRATION

    Mr. Cirillo. Well, thank you, and good morning, Chairman 
Burns, Senator Rockefeller, and Members of the Subcommittee.
    I'm here this morning with my colleague Nick Sabatini to 
discuss FAA's plans to safely integrate very light jets and 
unmanned aircraft into the NAS. To reiterate what Mr. Sabatini 
just said, the FAA is involved in the introduction of new 
aircraft types, from the drawing board to the runway. We're 
there every step of the way to ensure that new aircraft are 
designed, manufactured, maintained, and operated safely. Our 
safety record is the envy of the world. We leave nothing to 
chance.
    Our Nation's air traffic management system is also the most 
technologically advanced, precise, and robust system in the 
world. Our workforce is constantly striving to improve safety 
and efficiency. The ATO is producing results today that have 
already increased capacity and improved efficiency. In 
conjunction with the Joint Planning and Development Office, 
we're designing the Next-Generation Air Transportation System.
    I'd like to take this opportunity to describe to you some 
of the programs we're implementing today that are laying the 
foundation for the NextGen system.
    Last year, we implemented Domestic Reduced Vertical 
Separation Minimum. DRVSM has significantly increased capacity 
in the high altitude en route airspace by doubling the number 
of usable altitudes between 29,000 and 41,000 feet, which is 
the level where commercial airliners fly. DRVSM permits 
controllers to reduce minimum vertical separation at these 
altitudes from 2,000 feet to 1,000 feet; thus, allowing twice 
the capacity in the same airspace.
    Last month, the FAA approved the updated Roadmap for 
Performance-Based Navigation, which was developed in 
cooperation with the aviation industry. The 2006 Roadmap 
focuses on addressing future efficiency and capacity needs 
while maintaining or improving the safety of flight operations 
by leveraging advances in navigation capabilities on the flight 
deck.
    The strategy rests upon two key navigation concepts: Area 
Navigation, or RNAV, and Required Navigation Performance, or 
RNP. RNAV procedures provide flight-path guidance that is 
incorporated into onboard aircraft avionics system, requiring 
only minimal air traffic instruction. RNAV procedures allow for 
more precise routes for departures and arrivals, reducing time 
intervals between aircraft on the runways and allowing for 
increases in traffic, while enhancing safety.
    In 2004, 13 RNAV departure procedures and four RNAV arrival 
procedures went into full operation at Atlanta Hartsfield-
Jackson International Airport, the world's busiest. In 
addition, 16 RNAV departures were implemented at DFW 
International Airport in 2005. The FAA published 53 of these 
procedures in 2006, and plans to publish at least 50 more in 
2007.
    RNP procedures use onboard technology to allow pilots to 
fly direct point-to-point routes more reliably and accurately. 
It gives pilots not only lateral guidance, but vertical 
precision, as well. RNP potentially reaches all aspects of 
flight--departure, en route, arrival, and approach. As of 
today, the FAA has published 28 RNP approach procedures this 
year, and plans to publish at least 25 more in Fiscal Year 
2007.
    As we move toward implementing the NextGen system, we are 
actively working to incorporate VLJs and UAs into the current 
NAS. We've been working with the VLJ industry to learn about 
their business plans, to ensure we're prepared.
    The advertised business models for the first companies say 
that they will fly point-to-point among the Nation's 5,400 
smaller airports. In addition, we're expecting the VLJs to 
operate in the less-congested lower altitudes. Although it's 
expected that many of the VLJs will be certified to 41,000 
feet, the planned stage links for these business plans are 
typically less than 600 nautical miles, which will limit most 
of their operating altitudes to between 15,000 and 28,000 feet.
    It's expected that these aircraft will be delivered from 
the manufacturer with state-of-the-art avionics that will allow 
the VLJs to take advantage of RNAV and RNP procedures and 
routes that will assist us in accommodating these aircraft in 
all phases of flight.
    Incorporating UAs into the NAS will require similar efforts 
at the FAA. UAs are also an evolving aviation segment. 
Safeguards are currently in place, through a Certificate of 
Authorization, or COA, for government agencies and Experimental 
Airworthiness Certificates for civil operations, to provide 
appropriate criteria to be met by UA operations to ensure they 
do not jeopardize safety of other aviation operations or the 
public on the ground.
    Our objective in issuing a COA or EAC is to ensure an 
equivalent level of safety as manned aircraft. As the UA 
segment of aviation matures in both technology and types of 
missions, our service delivery will evolve to accommodate their 
operations, consistent with the mandate to maintain system 
safety.
    We have the system in place at the FAA to assure the safe, 
successful integration of VLJs and UAs into the NAS, regardless 
of their size, speed, or performance capabilities. VLJs and UAs 
will enter a more advanced and more flexible air traffic 
control system than ever before. We've handled the introduction 
of new aircraft types successfully in the past while preserving 
system safety, and will continue to do so in the future.
    This concludes my remarks. I'd like to thank you for the 
opportunity to discuss the introduction of new aircraft into 
the NAS with you, and I'd be happy to answer any questions you 
may have.
    [The joint prepared statement of Mr. Sabatini and Mr. 
Cirillo follows:]

      Joint Prepared Statement of Nicholas A. Sabatini, Associate 
    Administrator for Aviation Safety, and Michael A. Cirillo, Vice 
                          President, Systems 
    Operation Services, Air Traffic Organization, Federal Aviation 
                             Administration
    Good morning, Chairman Burns, Senator Rockefeller, and Members of 
the Subcommittee. It is our pleasure to be here today to discuss with 
you the introduction of new aircraft in our Nation's air traffic 
system. The Federal Aviation Administration is preparing to deal with 
the challenges presented by these and other new types of aircraft. Very 
light jets (VLJs) and unmanned aircraft (UAs) are examples of the on-
going evolution of the aviation industry, and the FAA, working closely 
with the aviation industry, will develop safety standards and operating 
procedures to ensure their safe integration into the NAS.
    VLJs and UAs are part of the future of aviation, and that future is 
on our doorstep right now. The system is in place today to accommodate 
the entry of new aircraft into the National Airspace System . . . this 
is nothing new for the FAA. It is our day-to-day business. From when 
FAA's predecessor agency certified the Buhl Airster in 1927, to the 
introduction of the Boeing 707 and the dawning of the jet age in the 
late 1950s, FAA has always been able to successfully assimilate new 
aircraft into the NAS. When the Boeing 707 began its transcontinental 
flights, the average airspeed of passenger aircraft more than doubled 
overnight, from about 220 knots to over 500 knots. And this transition 
into the jet age took place within an infrastructure that was 50 years 
old at the time. The system is more robust today, with better 
technology, more precision, and greater flexibility, than at any time 
in our history. FAA has long established operating procedures that 
ensure different types and vintages of aircraft are operated at 
compatible airspeeds in congested airspace or while en route to and 
from the high altitude airspace. From beginning to end, nothing is left 
to chance.
    Relatively inexpensive twin-engine VLJs are believed by many to 
have the potential to redefine the business jet segment by 
significantly expanding business jet flying and offering performance 
that could support a true on-demand air-taxi business service. FAA 
forecasters project that up to 5,000 of these jets will be in operation 
by 2017.
    The FAA has established a cross-organizational group to address the 
issues of safety and system capacity created by the anticipated 
introduction of thousands of VLJs within the next 10 years. This group 
includes elements from our Air Traffic Organization (ATO), Flight 
Standards Service (AFS), Aircraft Evaluation Group (AEG) and Aircraft 
Certification Office (ACO). The group has organized its work under 
separate committees that focus on specific issues: Pilot Training and 
checking; Flight Operations; Maintenance; Inspector Training; and Air 
Traffic.
    Also, to address UAs, we have established an Unmanned Aircraft 
Program Office to develop guidance and regulations for certification 
and integration of UAs. Interest in using unmanned aircraft (UAs) for a 
broad range of purposes is increasing, not only by U.S. governmental 
agencies, but also by the civil aviation community. Integrating UAs 
with manned aircraft in the NAS presents significant challenges for the 
FAA, and both the public and private-sectors. At the outset, it is 
helpful to understand that UAs cannot be described as a single type of 
aircraft. UAs can be vehicles that range from a 12-ounce hand-launched 
model to one the size of a 737 aircraft. They also encompass a broad 
span of altitude and endurance capabilities. Obviously, the size of the 
UA impacts the complexity of its system design and capability. 
Therefore, each different type of UA has to be evaluated separately, 
with each aircraft's unique characteristics being considered before its 
integration into the NAS can be safely accomplished.
    The certification of all government agency aircraft, including UAs, 
in the NAS is considered a public aircraft operation, the oversight for 
which falls outside the scope of the FAA. These public operations are, 
however, required to be in compliance with certain federal aviation 
regulations administered by the FAA and the FAA is and must be involved 
to ensure that the operation of these aircraft does not compromise the 
safety of the NAS. FAA's current role is to ensure that UAs do no harm 
to other operators in the NAS and, to the maximum extent possible, the 
public on the ground.
    In working with government agencies, the FAA issues a Certificate 
of Authorization (COA) that permits the various public agencies to 
operate a particular UA for a particular purpose in a particular area. 
In other words, FAA works with the agency to develop conditions and 
limitations for UA operations to ensure they do not jeopardize the 
safety of other aviation operations. The objective is to issue a COA 
with terms that ensure an equivalent level of safety as manned 
aircraft. Usually, this entails making sure that the UA does not 
operate in a populated area and that the aircraft is observed, either 
by someone in a manned aircraft or someone on the ground. For example, 
in the interest of national security and because ground observers were 
not possible, the FAA worked with the Department of Homeland Security 
(DHS) to facilitate UA operations along the Arizona/New Mexico border 
with Mexico. In order to permit such operations, the airspace was 
segregated to ensure system safety so these UA flights can operate 
without an observer being physically present to observe the operation. 
With the steadily expanding purposes for which UAs are used and the 
eventual stateside redeployment of large numbers of UAs from the 
theater of war, the FAA expects to issue a record number of COAs. In 
fact, the FAA has issued more than 75 COAs this year, compared with a 
total of 50 for the two previous years combined.
    FAA's work with private industry is slightly different than with 
government agencies. The development of guidance and regulations for 
UAs for civil aviation use will be an evolving process. Standards 
development is required for all areas of UAs technology, including the 
airframe, maintenance procedures, pilot and controller training, 
powerplant and other areas. The FAA is working with industry, under the 
auspices of RTCA, Inc. to develop consensus standards for detect, sense 
and avoid systems; and command, control and communication systems. 
Until standards and minimum requirements are established, the FAA is 
working closely with companies that wish to operate UAs in the NAS 
today by applying the Experimental Airworthiness Certificate process.
    Today, for civil operation, companies may obtain an Experimental 
Airworthiness Certificate by demonstrating that their aircraft can 
operate safely within an assigned flight test area and cause no harm to 
the public. They must be able to describe their unmanned aircraft 
system, along with how and where they intend to fly. This is documented 
by the applicant in what we call a program letter. An FAA team of 
subject matter experts reviews the program letter and, if the project 
is feasible, performs an on-site review of the ground system and 
unmanned aircraft, if available. If the results of the on-site review 
are acceptable, there are negotiations on operating limitations. After 
the necessary limitations are accepted, FAA will accept an application 
for an Experimental Airworthiness Certificate which is ultimately 
issued by the local FAA Manufacturing Inspection District Office. The 
certificate specifies the operating restrictions applicable to that 
aircraft. To date, we have received several program letters for UAs 
ranging from 39 to more than 10,000 pounds. We have issued two 
experimental certificates, one for General Atomics' Altair, and one for 
Bell-Textron's Eagle Eye. We expect to issue at least one more 
experimental certificate this year.
    The COA and Experimental Airworthiness Certificate processes are 
designed to allow a sufficiently restricted operation to ensure a safe 
environment, while allowing for research and development until such 
time as pertinent standards are developed. They also allow the FAA, 
other government agencies, and private industry to gather valuable data 
about a largely unknown field of aviation. The development of standards 
is crucial to moving forward with UA integration into the NAS. Because 
of the extraordinarily broad range of unmanned aircraft types and 
performance, the challenges of integrating them safely into the NAS 
continue to evolve. The certification and operational issues described 
herein highlight the fact that there is a missing link in terms of 
technology today that prevents these aircraft from getting unrestricted 
access to the NAS.
    So far we have discussed FAA's current efforts regarding 
certification and regulation of VLJs and UAs as we enable the safe 
introduction of these new aircraft into the NAS. There are still many 
challenges to be met in these areas before the procedures for 
certification, licensing, training, inspection, maintenance and 
operation of these aircraft are standardized and routine. The question 
many have is how FAA is going to integrate these new aircraft into the 
NAS, without adversely affecting safety, or increasing congestion and 
delays. The ATO is producing results today that are already improving 
capacity and efficiency, and in conjunction with the Joint Planning and 
Development Office (JPDO), laying the foundation for the Next 
Generation Air Transportation System (NextGen).
    In 2005, the ATO implemented a new procedure, known as Domestic 
Reduced Vertical Separation Minima or DRVSM, which is truly exciting. 
DRVSM has significantly increased capacity in the en route airspace by 
doubling the number of usable altitudes between 29,000 and 41,000 feet. 
The procedure permits controllers to reduce minimum vertical separation 
at altitudes between 29,000 and 41,000 feet from 2,000 feet to 1,000 
feet for properly equipped aircraft.
    The User Request Evaluation Tool (URET) is a tool used by the 
controller to predict potential aircraft to aircraft, and aircraft to 
airspace conflicts earlier, allowing them to construct alternative 
flight paths. URET allows these conflicts to be addressed in a 
strategic sense rather than a tactical sense, with fewer deviations to 
the route or altitude.
    In August, the FAA approved the update to the Roadmap for 
Performance-Based Navigation, developed in cooperation with the 
aviation industry. The 2006 Roadmap focuses on addressing future 
efficiency and capacity needs while maintaining or improving the safety 
of flight operations by leveraging advances in navigation capabilities 
on the flight deck. This revision updates the FAA and industry strategy 
for evolution toward performance-based navigation. The Roadmap is 
intended to help aviation community stakeholders plan their future 
transition and investment strategies. The stakeholders who will benefit 
from the concepts in the Roadmap include airspace operators, air 
traffic service providers, regulators and standards organizations, and 
airframe and avionics manufacturers. As driven by business needs, 
airlines and operators can use the Roadmap to plan future equipage and 
capability investments. The strategy rests upon two key navigation 
concepts: Area Navigation (RNAV) and Required Navigation Performance 
(RNP).
    The ATO is focused on expanding the implementation of advanced RNAV 
procedures to additional airports. These RNAV procedures provide flight 
path guidance that is incorporated into onboard aircraft avionics 
systems, requiring only minimal air traffic instructions. This 
significantly reduces routine controller-pilot communications, allowing 
more time for pilots and controllers to handle other safety-critical 
flight activities. Also, RNAV procedures use more precise routes for 
departures and arrivals, reducing time intervals between aircraft on 
the runways, and allowing for increases in traffic, while enhancing 
safety. In 2004, thirteen RNAV departure procedures and four RNAV 
arrival procedures went into full operation at Atlanta Hartsfield-
Jackson International Airport--the world's busiest airport. 
Additionally, sixteen RNAV departures were implemented at Dallas/Fort 
Worth International Airport in 2005. The FAA published 53 of these 
procedures in FY 2006, and plans to publish at least 50 procedures in 
FY 2007.
    FAA is currently implementing additional technological innovations, 
including a capability known as RNP. RNP uses on-board technology that 
allows pilots to fly direct point-to-point routes more reliably and 
accurately. RNP is extremely accurate, and gives pilots not only 
lateral guidance, but vertical precision as well. RNP potentially 
reaches all aspects of the flight--departure, en route, arrival, and 
approach. As of today, the FAA has published 28 RNP approach procedures 
this year, and plans to publish at least 25 more in FY 2007.
    We must also make sure we are using the best technology to maintain 
a safe and efficient air traffic system. The en route air traffic 
control computer system is considered the heart of the NAS. En Route 
Automation Modernization (ERAM) provides the basic foundation upon 
which many of the transforming technologies moving us from the current 
NAS to NGATS needs. ERAM replaces the software for the Host Computer 
System and its backup. It will enable the FAA to increase capacity and 
improve efficiency in a way that cannot be realized with the current 
system, which is a mix of different technologies that evolved over the 
years and is extremely difficult to expand or upgrade. In addition to 
supporting new transformational technologies, ERAM itself can process 
more than double the number of flight plans, and use almost triple the 
number of surveillance sources as the current system. The ERAM system 
is scheduled to be deployed and operational at all 20 Air Route Traffic 
Control Centers by 2010.
    Traffic Flow Management (TFM) is the ``brain'' of the NAS, and is 
the reason that we could handle more traffic at our major airports in 
2005 than in 2000, without the long delays that made the summer of 2000 
the worst on record. The TFM system is the mechanism by which traffic 
flows across the NAS are orchestrated. As the NAS is impacted by severe 
weather, congestion and/or outages, the TFM system provides timely 
information to our customers to expedite traffic and minimize system 
delays. The FAA is currently in the process of modernizing the TFM 
infrastructure through its TFM Modernization program. We are currently 
introducing new Airspace Flow Management technology to reduce the 
impact of delays incurred during the severe weather season. FAA 
estimates show that TFM provides roughly $340 million in benefits to 
our customers on a yearly basis in reduced direct operating costs 
through delay reductions. ERAM and TFM together will enable flexible 
routing around congestion, weather, and flight restrictions, and help 
controllers to automatically coordinate flights, during periods of 
increased workload.
    The JPDO and ATO will work together to analyze the changes that 
will be needed to both ERAM and TFM so they meet the needs of the Next 
Generation System. Today's flight planning and air traffic paradigms 
will be transformed into a system that manages operations based on 
aircraft trajectories, regularly adjusts the airspace structure to best 
meet customer and security/defense needs and relies on automation for 
trajectory analysis and separation assurance.
    The JPDO serves as a focal point for coordinating the research 
related to air transportation modernization for agencies across the 
Federal Government, including the Departments of Transportation, 
Commerce, Defense and Homeland Security, as well as NASA and the Office 
of Science and Technology Policy.
    At the FAA, our eyes are focused on the NextGen Vision while using 
existing technology to provide important and tangible operational 
benefits now. We are finding ways to make existing capacity work more 
efficiently through advanced technology and operational improvements. 
Research is underway to explore ways of safely achieving reductions in 
separation standards, allowing for greater density of operations, which 
the anticipated increase in these vehicles will demand. We are also 
examining the Human Factors implications of super density operations 
and traffic control automation. Moreover, as-yet unexplored concepts 
may be expected to play a role.
    These innovations provide relief today as well as help to lay the 
foundation for the Next Generation System. Successful integration of 
VLJs and UAs into the NAS will represent a significant step in the 
process of evolution from the current NAS to the NextGen system. In 
order to fulfill the NextGen 2025 vision of handling significant 
increases in today's traffic, with improved safety, capacity, and 
efficiency, we must competently manage the introduction of VLJs and UAs 
into the NAS. The impact of these new vehicles on the NAS is addressed 
in the JPDO Concept of Operations (CONOPS). One overarching goal of the 
NextGen initiative is to develop a system that will be flexible enough 
to accommodate a wide range of users--very light jets and large 
commercial aircraft, manned and unmanned aircraft, small airports and 
large, business and vacation travelers alike, while handling a 
significantly increased number of operations with a commensurate 
improvement in safety, security and efficiency.
    In 2005, the JPDO moved ahead with plans to accelerate the 
development of key NGATS projects, such as Automatic Dependent 
Surveillance-Broadcast (ADS-B), and System Wide Information Management 
(SWIM). In FAA's Fiscal Year 2007 budget request, the Administration 
proposed several targeted investment areas, to promote early 
implementation of elements of the NGATS system. One of these very 
promising initiatives, with potential for broad operational 
applications, is the Automatic Dependent Surveillance-Broadcast (ADS-B) 
system, a technology that will replace ground-based radar systems and 
revolutionize air navigation and surveillance. For FY 2007, the 
President's budget includes $80 million for the FAA for the ADS-B 
program.
    Given its fundamental importance to the success of the NGATS 
System, establishing an initial Network-Enabled Operations (NEO) 
capability is a high priority for JPDO and its member agencies. Current 
efforts focus on identifying the network architecture and enacting 
standards for information and safety data sharing. In 2005, the JPDO, 
FAA and an industry team demonstrated how network-enabled concepts 
developed for the military customers can be applied to Air Traffic 
Management. The FAA's System Wide Information Management (SWIM) 
program--the beginning of network-centric operation in the National 
Airspace System--will continue developing this capability. The 
President's budget proposal for FY 2007 requests $24 million for FAA's 
SWIM program.
    The FAA has already been working with industry to identify the 
near-term operational requirements of VLJs in the NAS. DayJet, a large 
Part 135 operation, expects to be operating 100 Eclipse EA-500s by the 
end of 2007. Its business plan calls for utilizing regional airports in 
the southeastern U.S., and DayJet is working in close cooperation with 
FAA so we can establish appropriate flight procedures as these jets are 
introduced. FAA is also currently working with Eclipse to contract for 
training for both FAA operations and maintenance inspectors for FY07. 
The EA-500 is unlike any other aircraft currently in production, and is 
unique in that it has highly integrated avionics systems.
    Performance characteristics of VLJs are similar to some other 
business class aircraft that have operated in the NAS for many years. 
VLJs can operate from shorter runways than commercial airliners, and 
can utilize the 5000+ satellite airports around the United States. In 
fact, the advertised business models for the first companies state that 
they will fly point-to-point among the Nation's smaller regional 
airports that are situated within a half-hour's drive of over 90 
percent of Americans. These jets are expected to be delivered from the 
manufacturers with state-of-the-art avionics, capable of taking 
advantage of RNAV and RNP procedures and routes. Manufacturers state 
that VLJs will be IFR-certified, with glass cockpits, with full RVSM 
and ADS-B equipage. They will be capable of flying with single or dual 
pilots, with 4-10 passenger seats, and will typically operate at 
intermediate flight levels between 15,000 and 28,000 feet, but capable 
of 38,000 to 45,000 feet. Cruising speeds will be between 315 and 450 
KIAS or Knots Indicated Air Speed, with a range of 900-1750 nautical 
miles, although typical legs will be 200-600 nautical miles.
    The FAA is conducting training throughout the ATO regarding 
performance capabilities of these aircraft to help mitigate any 
problems with blending VLJs with faster jets. The FAA's Cross 
Organizational Group will continue to work to monitor the safety and 
impact of these new aircraft, and address any unanticipated problems as 
they arise.
    These technological and operational improvements are positive steps 
down the road to building the Next Generation Air Transportation 
System. The FAA and the JPDO are continuing to explore near and far 
term innovations that will enable accommodation of increasing numbers 
of VLJs and UAs in the NAS. We know, however, that we continue to face 
many challenges. Over the next few years we will work to achieve better 
cost management; determine the best solution for our aging and 
deteriorating facilities; plan more effectively for catastrophic 
events, like hurricanes or terrorist attacks; and, conduct research on 
convective weather to reduce flight delays associated with summer 
storms. Everything in our business--pay, job performance, future 
technology, the Nation's economy--is linked together. We strive to 
improve efficiency, while searching for innovative ways to provide 
safer services even more efficiently. As we decide how to wisely invest 
in our future, we will continue to work closely with our customers, our 
employees, and of course, Members of Congress.
    Mr. Chairman, this concludes our testimony, and we would be happy 
to answer any questions the Committee may have.

    Senator Burns. Thank you very much, Mr. Cirillo.
    And let me--I will start this off, just--well, a question 
to you.
    Now, we know that these new light jets, they have legs of 
about 1,100 miles. They fly around 350-375 miles an hour. They 
are lighter than 10,000--when they started out, I think, it 
weighed around 10,000 pounds. I understand that. They are 
backordered. They are, it seems like, costing from a million to 
a million-and-a-half dollars, with some of them costing more 
from some manufacturers. But those are the first figures that I 
have seen.
    Do you have any indication just how popular this airplane 
is going to be, and the numbers that we might expect in the 
next 5 years?
    Mr. Cirillo. Well, maybe Mr. Sabatini can address the 
popularity, maybe not, but we have the same figures that you 
have, and that was 5,000 by the year 2017.
    Senator Burns. Mr. Sabatini, does that----
    Mr. Sabatini. Mr. Chairman, I would offer that FAA has 
forecasted that by 2025 we'll have approximately 5,000 aircraft 
in the system. But I would say that, as I believe the system 
will work, and how they are in--at the present time, on order, 
the number on order, they will be assimilated into the system 
in an orderly fashion. We don't have 5,000 airplanes waiting to 
be launched overnight. So, it's going to be a very well-
controlled and managed process to allow the introduction of 
these aircraft.
    Senator Burns. In the areas of UAVs--and I hear they can be 
as small as the models that we see flying on Sunday afternoon 
to as big as a 737. Is that correct?
    Mr. Sabatini. That is correct, sir.
    Senator Burns. Does this present unique problems to you?
    Mr. Sabatini. Yes, it would, but we have processes in place 
that certainly we've been, for the past several years, 
accommodating the need for these unmanned aircraft to enter 
into the system. We do work with the Department of Defense and 
other public agencies who have a need to put Predator-type 
aircraft up along, for an example, the southern border. We have 
protected airspace and very specific and tightly controlled 
procedures for the safe operation of those aircraft in the 
system. So, we accommodate them.
    Senator Burns. The reason I asked that question, we've got 
570 miles of border with Canada in my home state, and we are 
now looking at a virtual kind of security border. And 
sometimes--those of us who are on the ground, ``virtual'' 
doesn't mean a lot. In other words--I always make the comment--
if I put a virtual bull on a virtual cow and get a virtual 
calf, do I get a virtual check when I take the calf to market? 
I want to see something, you know. But UAVs, the training and 
the certifications of operators of UAVs, be they Department of 
Defense or Homeland Security, do they have--is there a 
certification procedure that those operators go through? Are 
they--with the satisfaction of the FAA?
    Mr. Sabatini. Yes, sir. What we're currently doing, whether 
we issue an Experimental Airworthiness Certificate to the civil 
side of the request or whether it's from a public agency such 
as DOD or Customs and Border Patrol, and issue a Certificate of 
Authorization, we require, at this point in time, a pilot 
license with instrument rating. That's the going-in model. 
We're also working in with the RTCA, where all interested 
members of this industry are participating with the RTCA to 
determine how best to develop the technology around ``detect, 
sense, and avoid,'' as well as ``command, control, and 
communications.'' So, I'm confident that we're putting in place 
the kinds of controls that assure the safe operation of these 
aircraft.
    Senator Burns. Those standards are in place now.
    Mr. Sabatini. Yes, they're existing pilot----
    Senator Burns. OK.
    Mr. Sabatini.--requirements.
    Senator Burns. All right.
    Senator Rockefeller?
    Senator Rockefeller. Thank you, Mr. Chairman. Let me just 
take off from the Chairman's questioning.
    Now, you've--we have agreed on about 350 knots, 80 knots, 
up to 550 knots, 41,000 feet. And I know that many in the 
industry state that very light jets will fly between 18,000 and 
30,000 feet. They're--according to that logic, they wouldn't 
be--they'd not be interfering with long-haul traffic. But even 
at these altitudes, would they not pose an air traffic control 
problem? And I say this, because when I fly on turboprops from 
Charleston, West Virginia, to Washington, D.C., or to Dulles, 
as the case may be, they fly precisely in that range, at the 
lower end of that range. So, these are very congested 
airspaces. So, you indicate that the plans are place, and yet 
I've got to get a much better feel as to how you're going to 
handle this with respect to the air traffic controllers that 
Senator Lautenberg brought up, and I'm just, sort of, at a loss 
to figure out--there's so much traffic at a lower level, until 
everybody gets regional jets--and I don't even know, you know, 
how high they fly, whether there would be interaction there. 
But if there is, I'm worried about it. I'd like to have you 
discuss that.
    Mr. Cirillo. Well, the top range, of 31,000 feet, is--I 
think that's in the transition phase of flight out of a 
terminal area. There is--they will be intermixed with other 
aircraft of all different types. However, the routes can be 
segregated. We currently do not forecast that the major 
airports will be inundated with very light jets, that they will 
probably use a satellite airport, in which case we can 
segregate those flows. And so, the final altitude that the 
airliners will use will be also segregated from very light 
jets. And even in our major metropolitan areas today, the 
routes into the major airport and the satellite airports are 
different, so you can segregate the flows that way. And there 
is capacity at those airports. We often talk about the 
capacity-constrained airports, and they do exist. But----
    Senator Rockefeller. But, Mr. Cirillo, you're talking as if 
there were a lot of satellite airports lying around. You know, 
I mean, if you apply that theory to West Virginia, I guess 
you've got to fly--you've got to land in the Greenbrier Airport 
and then drive 3 hours to Charleston. I mean, there just aren't 
satellite airports everywhere. Yes, there are, you know, 
Teterboro, et cetera, but I can see--that's meant to be a 
satellite airport, but it's also, I think, busier than 
LaGuardia. It has more traffic than LaGuardia. So, I can't 
assume that satellite--sort of, the release point for these 
planes.
    Mr. Cirillo. The--well, the business model we've seen shows 
a--for a particular airport, is a fairly small number of very 
light jets. And airports like Charleston do have capacity. And 
a very light jet can use a runway----
    Senator Rockefeller. I agree with that, yes.
    Mr. Cirillo. A very light jet can use a runway that is as 
short as 3,000 feet--3,000 to 5,000 feet. So, that opens up 
myriad airports available for their use, which I'm sure are--
that you may have in the vicinity of Charleston. So, it is in 
their best interest to have a business model like this, because 
of the flexibility involved. They can go where the capacity 
exists, and it exists----
    Senator Rockefeller. But you're saying--I mean, I certainly 
can't make the case that Charleston, West Virginia Airport is 
overflowing with flights, but I would think, as one went about 
the country, there would be a lot of places that are larger 
than Charleston, had more air traffic than Charleston-
Huntington, et cetera, where there would not be satellite 
airports. I'm just trying to--I'm just--you said there's going 
to be a mix in the air. I accept that, and I worry about that. 
So, I need to have you put me at ease.
    Mr. Cirillo. Well, we can--on the subject of the mix in the 
air, we can deconflict in the air. And the reason I brought up 
RNAV/RNP is because it does provide for precise navigation and 
less separation between routes. And so, in a--even in a busy 
terminal area, there is a way to deconflict the major flows 
from the big airports and the smaller flows from the satellite 
airports.
    So--and then, in the en route phase of flight, there will 
be a disparity in altitudes, so there really is not a conflict 
there. And there is a lot of en route capacity. We talk about 
the New York area quite a bit, but there is a significant 
amount of en route capacity throughout the rest of the country, 
especially at those altitudes.
    Senator Rockefeller. My time is up. Thank you.
    Mr. Cirillo. Thank you.
    Senator Burns. Senator Lautenberg?
    Senator Lautenberg. Thanks, Mr. Chairman.
    Do we--do either--do you have any idea about how many of 
their airplanes may be in the sky at a busy hour, typically, in 
a day in the United States?
    Mr. Cirillo. Very light jets? The only business model I've 
seen is numbers of aircraft for particular airports, and they 
were all--they were all very low-activity airports, and the 
numbers were not overwhelming.
    Senator Lautenberg. Well, I'm sorry--Mr. Cirillo, what I 
understand is that there are about 5,000, at a busy moment, in 
the sky today. Now, we're introducing an additional 5,000. And 
I--as someone who frequently uses the flights between here and 
the New York airports, Newark included, where we're under 
constant delay--half-hour the other--one night, I was told that 
the airplane couldn't take off for an hour and a half. They had 
just closed the door. And after sitting an hour and a half, the 
pilot said, ``We've had some discouraging news. It's another 
hour that's contemplated. Too much traffic for the area.'' 
Well, what are we doing to get ready for that? What kind of 
airport changes have to be made? Do the very light jets land at 
the same speed as turbos or piston engines? There will have to 
be some accommodations made, I assume.
    Mr. Sabatini. Well, Senator, I would offer--to expand on 
this subject of the compatibility, I would offer that, in 
addition to the precise navigation that these aircraft are 
capable of and the system that is in place today to accommodate 
that, we can do offsets safely. So, you can have parallel route 
structures because of the GPS capability that these aircraft 
now have.
    Senator Lautenberg. In these smaller airports that you're 
talking about, these satellite airports?
    Mr. Sabatini. Well, I would tell you that the aircraft are 
capable of doing that----
    Senator Lautenberg. Oh, yes.
    Mr. Sabatini.--and we are in the process of building and 
putting in place the kinds of instrument approaches that will 
permit that kind of capability. Mr. Cirillo offered examples of 
Atlanta, where we have demonstrated very clearly there is 
tremendous savings for the fuel conservation and tremendous 
savings in time----
    Senator Lautenberg. Yes.
    Mr. Sabatini.--as well as workload----
    Senator Lautenberg. Yes.
    Mr. Sabatini.--between the pilot----
    Senator Lautenberg. But when--
    Mr. Sabatini.--and the air traffic controller.
    Senator Lautenberg.--when you get into an airport, and 
you've got--the only thing you've got is a UNICOM, and they 
said, ``Well''--and that you've got a recording, ``The winds 
are thus and''--and they're not--these are intended to land at 
shorter runways in order to make them really useful.
    Let me leave that question, because we're in, apparently, 
some territory where we're--that's not clearly understood, and 
that--the number of controllers to take care of the--our needs. 
Right now, it's estimated that we need 15,000 controllers, but 
we barely have 14,000. That's under current conditions. We have 
these retirements facing us. Is that something that you folks 
are looking at as we contemplate heavier use of the airspace?
    Mr. Cirillo. We currently have in the neighborhood of 
14,600 controllers, which we--which was the projection of our 
need for this year. We actually hired more this year. By the 
end of the fiscal year, we will have hired more than we had 
anticipated. And--now, we do have a fairly sophisticated hiring 
plan, over the next more-than-decade, that includes more than a 
thousand hires per year.
    Senator Lautenberg. Would you certify an airplane, knowing 
that, over the airplane's life, that, then, 25 percent of them 
might crash?
    Mr. Sabatini. Sir, the certification of an aircraft has to 
demonstrate that it complies with a particular rule. They'll--
--
    Senator Lautenberg. Have you looked at the M-2--the 
Mitsubishi, Mr. Sabatani?
    Mr. Sabatini. Well, the airplane, at the time of--it was 
certified, demonstrated that it could meet----
    Senator Lautenberg. How about its performance now, where 
one out of four of them that were built have crashed?
    Mr. Sabatini. Well, we've been quite vigilant on that 
subject, sir, and I----
    Senator Lautenberg. What does that mean?
    Mr. Sabatini. Well, we've been reviewing the history of 
that aircraft, and have, as a matter of fact, as early as 
earlier this week, we have a special Federal Aviation 
Regulation that has been posted at the Federal Register to 
address the special training that we have determined needs to 
be put in place, and which industry has voluntarily adopted, 
even before the regulation became effective. So, we've worked 
very closely with the industry. We recognize that, as the 
aircraft has transitioned from where it started, in terms of 
its introduction, being operated with a certain class and group 
of people, migrating to a different category, we have 
identified that, in fact, there have----
    Senator Lautenberg. Would you put your family in an MU-2?
    Mr. Sabatini. I'm a pilot, sir, and I would fly one today, 
myself, with my family.
    Senator Lautenberg. You would fly one. Would you put your 
family in it?
    Mr. Sabatini. I would put my family in it.
    Senator Lautenberg. Um-hmm. Well, I wouldn't. And I sit 
second seat a lot of times. But----
    Thank you very much, Mr. Chairman.
    Senator Burns. Thank you, Senator.
    With the new technologies, I would tell you that, in 
general aviation, we do a great deal of flying with GA in 
Montana. And those of you with the new GPS systems that can be 
put in there, you tell me where you're strip is, give me the 
coordinates--I don't care if it's a grass strip in Augusta, 
Montana--we can find it, we can put--we can get it in there. 
And--under some conditions that we didn't use to have, to be 
right honest with you, years ago.
    Some of these light jets will be going into air taxi 
service, I understand. How do we deal with Part 135 of the FAA 
regulations on single pilots requiring two pilots in air taxi, 
or to allow those operations to go ahead with just one pilot? 
How do we deal with that, Mr. Sabatini?
    Mr. Sabatini. Well, the current regulation, Part 135, has, 
for a long time, accommodated that option by on-demand-type 
operations in--with a single pilot. So, we have a long history 
and a methodology and a process where an applicant, an operator 
who wishes to avail themselves of that capability, must 
demonstrate that they have the appropriate training program in 
place for its pilots, that they have the appropriate autopilots 
and functioning for that aircraft, because it is not just a 
single-pilot operation, it is also compatible--has to be 
compatible with the equipment onboard the aircraft. So, we do 
permit it today, and have a long history of safe operations 
with single pilots.
    Senator Burns. I have no more questions for this panel. I 
do have some more, but they are, sort of--I think it'll be an 
ongoing discussion with both of you gentlemen as we work our 
way through the reauthorization process next year. I appreciate 
your testimony.
    And if you have any more questions, why, I'd--I'm going to 
do that, but, as far as I'm concerned, I want to thank you for 
being candid with us and--in your testimony, and also in our 
daily dealings with the FAA. I appreciate that very much.
    Senator Rockefeller?
    Senator Rockefeller. Thank you, Mr. Chairman.
    It's been very interesting to me to watch all of the rigors 
and the people involved in the certification process. And I 
don't mean to come back to Sino--the SJ-230, but that has 
13,000 parts. They all have to be certified by the FAA, every 
single one of them. And my question is--and it's a long 
process. Adjustments were made as a result of that process. So, 
as these new lighter planes are coming onto the market--there 
are--I think there are about 20 different models that are being 
considered, at the present time--I'm interested in--do you 
have--and to make the point more strongly, getting the FAA 
certifiers out to Martinsburg, West Virginia, has been tough, 
to get enough of them, on a present--larger small passenger 
jet. You get 20 more coming online, and I just want to be 
sure--I want you to tell me, one, how many people you have 
involved in certification. How, in general, are they dispersed, 
by what order of priority? And how are they going to handle 
these new models coming on?
    Mr. Sabatini. Thank you, Senator.
    From the safety side of the house, sir, our first order of 
business and first priority is continued operational safety. 
That is number one. And, from that point on, we then have to 
prioritize the work that we do. And as a result, because we 
focus our attention on continued operational safety, where you 
tend to see the impact of staffing is in the arena of 
applicants coming to us for new certification, starting in 2006 
we've had to put in place a queuing system. So, while 
applicants will eventually be served, they are put in a queue, 
and it could some time for us to get to those folks to deliver 
the service they're looking for from the FAA.
    So, when we do certify an aircraft--and I will tell you 
this, the current models that are in place today are not 
suffering from a certification backlog. Those folks were in the 
queue early on, and we've--are certainly providing the 
necessary resources to get that work done. But those other 
applicants that will be coming online, while there may be 20 
thinking about it--some, seriously; some quite--not so 
seriously--they have expressed their desire to build 
airplanes--but they have been informed that there is a queue, 
and that there is a period of time, most likely, they will 
wait. Congress has certainly recognized that--in 2006, you 
plussed us up, and certainly recognized that in the 2007 
budget. So, we certainly appreciate that, but that's where the 
impact does show up. But never at the level of safety--at the 
safety level.
    Senator Rockefeller. Thank you.
    Senator Burns. Senator Lautenberg, do you have----
    Senator Lautenberg. A couple, Mr. Chairman, if you'd 
indulge me. And thanks for calling this hearing. I think it's 
very important.
    Did you say, Mr. Cirillo, that you have 14,600 people on 
duty now in the air--air traffic controllers?
    Mr. Cirillo. Yes, in--well----
    Senator Lautenberg. They're on duty. Now, I'm not----
    Mr. Cirillo. They're on duty. Some are in various stages of 
training.
    Senator Lautenberg. Of--various stage--so, they're not on 
duty, those stages of training. And those that you've hired 
this year--you said 14,600, that this was a big hiring year. 
But the question is, What's the standing population of the 
controller force?
    Mr. Cirillo. That was the 14,600.
    Senator Lautenberg. Yes, we have reason to challenge it, 
and we'll discuss that at a later moment, if you will.
    All right. Do these have any--Mr. Sabatini, do these 
airplanes have any commercial viability? Will they--can they be 
used--I mean, you know that there are places that fly a Cessna 
402 and put eight passengers in there, and they function.
    Mr. Sabatini. Well, we certainly have certified the 
airplane to perform under many different circumstances and 
operating environments. It would certainly be up to an operator 
to decide to use it in a business model that they choose to.
    Senator Lautenberg. But you'd have no restriction.
    Mr. Sabatini. None. We have regulations that would be 
specific for the type of operation that operator----
    Senator Lautenberg. So that they can put as many people as 
they can comfortably fit in there, right?--in one of these 
airplanes.
    Mr. Sabatini. Yes, and they can use it, under Part 135, on 
demand, or they can use it--well, basically, that's the 
regulation----
    Senator Lautenberg. Yes.
    Mr. Sabatini.--they would be able to----
    Senator Lautenberg. Yes.
    Mr. Sabatini.--use it under.
    Senator Lautenberg. Right. I wanted to ask you this, that 
when we look at the accommodations needed, did--do you think 
at--with the present restrictions--we've got a 1,000-foot 
separation, and delays, constantly, on the East Coast and other 
fairly busy places. They cause delays all over, because what 
happens if New York is jammed with flights coming North-South, 
then they can't take the airplanes from the West, coming there. 
At what point do you say that skies have finite--has a finite 
limit and that there's a point at which we can't take any more, 
based on the fact that delays count? Is there a delay marker 
that we use that says that every flight should be off in 10 
minutes, or something like that, from its advertised time?
    Mr. Cirillo. Well, safety is our number-one priority, so we 
don't put those types of parameters around the operation, 
because our ultimate mandate is to maintain the safe operation. 
But we do have a sophisticated traffic flow management system, 
and it's generated from the Air Traffic Control System Command 
Center in Herndon and our traffic management units around the 
country, and we have the ability to put a traffic management 
initiative in at any airport, and also, as recently as this 
year, for the airspace. And the reason is obviously to maintain 
efficiency, but, more importantly, is to maintain safety so 
that airports or airspace or sectors don't get overloaded and 
we have the maximum throughput while still maintaining our 
safety mandate.
    Senator Lautenberg. Would it make sense for FAA to publish 
delay statistics? Do they do it now?
    Mr. Cirillo. Yes, sir.
    Senator Lautenberg. How frequently?
    Mr. Cirillo. On a daily basis, we----
    Senator Lautenberg. All airports?
    Mr. Cirillo. Yes, sir.
    Senator Lautenberg. I would ask you a question. What about 
the noise level from these aircraft? Will they be significantly 
less or more than, let's--turboprops or other--the lightest of 
the jets that are flying now?
    Mr. Sabatini. They will certified to the most recent noise 
requirements. And I will tell you that when they fly by, you 
will hardly hear them.
    Senator Lautenberg. Really? That would be excellent. Well, 
does that mean we can get rid of some of the old, noisier ones 
that are not yet--that don't meet the standard in a lot of 
airports?
    Mr. Sabatini. Well, sir, I believe today that all aircraft 
that are operating today, regardless of their weight, meet or 
exceed the noise requirement contained in their certification 
basis. As technology for aircraft and engine design has 
improved over the years, many aircraft today are quieter than 
their predecessors. This is also true for small jets in 
general. Market forces will determine the attrition rate of the 
noisier jets.
    Senator Lautenberg. Most. Not all.
    Mr. Sabatini. Well, I'm not aware of any, so I'd have to 
get back to you, Senator.
    Senator Lautenberg. Thanks very much, Mr. Chairman. Thank 
you, gentlemen.
    Senator Burns. Thank you. And I thank both of you for 
coming this morning and offering your testimony. We'll--we look 
forward to working with you as we work through next year. Thank 
you very much. Thank you.
    We'll go to our second panel: Mr. Vern Raburn, President 
and Chief Executive Officer of Eclipse Aviation Corporation, 
out of Albuquerque, New Mexico; Mr. Edward Iacobucci, President 
and Chief Executive Officer, DayJet Corporation, Delray Beach, 
Florida; Jack Pelton, Chief Executive Officer from Cessna 
Aircraft out of Wichita, Kansas; and Mr. Matt Andersson--and I 
suspect it's ``Anderson,'' though--Senior Aviation Consultant, 
Aerospace, Defense and Transportation, CRA International, out 
of Chicago. We appreciate you gentlemen coming today.
    [Pause.]
    Senator Burns. As we tackle with this new challenge in 
aviation of UAVs and very light jets, we appreciate your 
testimony. I read most of it last night. I appreciate some of 
your testimony. And if you have a 5-minute version of your 
testimony, that would certainly be helpful to us, at this time.
    Mr. Vern Raburn, Chief Executive Officer of Eclipse, thank 
you for coming today.

           STATEMENT OF VERN RABURN, PRESIDENT/CEO, 
                  ECLIPSE AVIATION CORPORATION

    Mr. Raburn. Thank you, Mr. Chairman. I appreciate the 
opportunity to speak to the Committee today on the really 
exciting opportunities and changes that are happening in 
aviation today.
    I founded Eclipse Aviation in 1998 to really revolutionize 
air travel through a low-cost, high-performance jet that we 
believe is delivering unprecedented levels of performance, 
efficiency, reliability, and safety, to customers. I do so with 
the knowledge that our air transportation system would not be 
equipped to meet the needs of 21st century air travelers. And, 
in fact, the need for a whole new layer of air transportation 
would be crucial to our country's future leadership and 
economic development.
    We believe that, enabled by this emergence of these new 
VLJs, that there's a whole new generation of entrepreneurs that 
will be emerging to offer services using these aircraft. These 
air-taxi or on-demand air travel companies intend to leverage 
the breakthrough performance and costs of VLJs to provide 
point-to-point on-demand service through hundreds, not just a 
few, communities in the United States.
    The beneficiaries of VLJs will be individuals who regularly 
endure the 5- to 10-hour drives, not airline travel, because 
they cannot access commercial airlines for their transportation 
needs. In other words, consumers will be using this form of air 
transportation to go to new levels of companies, new levels of 
communities, whether it's small, medium, or even large-sized 
companies will be using these aircraft to increase their travel 
needs or their travel capabilities.
    Last, these aircraft will offer owner/operators--people 
who, like myself, own aircraft--conduct business and personal 
air travel in a way that hasn't been possible heretofore.
    There are a number of faulty assumptions about VLJs that 
I'd like to address. These are myths that are primarily being 
generated by current users of the system that do not understand 
the capability of these aircraft.
    This first myth is that these VLJs will be flown by 
inexperienced pilots, and training will be a concern. The 
simple fact of the matter is that we have over 800 individuals 
who have bought these aircraft, and these individuals typically 
have a commercial pilot's license, have over a thousand hours 
of experience, and are already qualified to fly aircraft that 
are far more difficult to fly.
    Training. Eclipse pilots will receive the most advanced 
flight training, far beyond any mandate from the FAA. In fact, 
they will receive training that is in excess of what airline 
pilots typically receive. So, we will be training the pilots, 
with the ultimate context of, ``If you can't meet the training 
criteria, we won't sell you an airplane.'' No other 
manufacturer has ever made that claim previously in the history 
of aviation.
    Another myth is that VLJs will cause airport congestion. 
There's a lot of ample evidence to show that en route airspace 
to accommodate new aircraft with today's antiquated ATC system 
is able to handle this. VLJs will rarely be accessing major hub 
airports. In fact, they will be accessing the satellite 
airports. To Senator Rockefeller's question earlier, every 
major city, ironically, with the exception of Washington, D.C., 
has significant number of satellite airports around it, 
including, by the way, Charleston. And passengers will be able 
to use time-sensitive, on-demand air travel, to go where they 
need to go when they want to go. Once again, I want to 
emphasize the point, not where the airlines go today, but where 
the airlines don't go.
    The myths continue with this idea that VLJs will disrupt en 
route traffic flows. Again, this is simply not a fact. In fact, 
we rarely will fly at higher altitudes. I've flown the Eclipse 
500 now well over 150 hours, and I've only been above 28,000 
feet six times; principally on test flights. That's because at 
even 28,000 feet, the aircraft offer 100 knots of additional 
speed for the same fuel burns as turboprops. For the ranges and 
the typical trips that these aircraft will be using, whether it 
be up and down the East Coast or to the West Coast or to 
Montana or to Wyoming, this airplane will be able to use these 
altitudes, very effectively.
    There is another myth or concept that VLJs drive cost into 
the air transportation system. Well, the simple fact of the 
matter is, once again, that most of the cost in the air 
transportation system today is driven by the airlines, by their 
need to go to and from a very, very small, finite number of 
airports, whether it's the 22 PACER airports or the 35 OEP 
airports. That's what drives the congestion in the system 
today, is the fact that they all go in, and want to depart and 
arrive at, the same places. VLJs will, once again, be operating 
out of the airports, out of the communities where there is no 
congestion today.
    So, the fact is that a lot of these concepts are fully 
misdirected, and it's endangering the economic future of this 
country. The airlines are approaching air transportation as a 
zero-sum game, as a game that simply says, ``There's no more 
space left, let's restrict the access to the system.'' In fact, 
a recent study that Matt will be talking about, from CRA, says 
that, based solely on the VLJ projections from the FAA, that 
there will be over $24 billion in economic output, over $7 
billion in earnings, and over 176,000 jobs created by 2017, 
from VLJs alone. In Albuquerque, alone, we now employ 850 
employees that, 2-5 years ago, were not employed in 
Albuquerque, with an average salary that's three times that of 
the average salary in the State of New Mexico. It is 
unfathomable that we, as a Nation, will not move forward 
aggressively to tap into this significant growth opportunity 
for businesses and economic expansion.
    Thank you very much for your time.
    [The prepared statement of Mr. Raburn follows:]

           Prepared Statement of Vern Raburn, President/CEO, 
                      Eclipse Aviation Corporation
    Good morning. My name is Vern Raburn, and I am President and CEO of 
Eclipse Aviation Corporation (Eclipse), located in Albuquerque, New 
Mexico. I appreciate the opportunity to address the Senate Committee on 
Commerce, Science, and Transportation Subcommittee on Aviation, 
concerning the incorporation of the very light jet (VLJ) into the 
national air space (NAS) and into our Nation's economy. My goal today 
is to first summarize Eclipse Aviation, the Eclipse 500 and the current 
air transportation system. Second, I want to dispel the many myths that 
the airlines are creating about VLJ integration into the National 
Airspace System. And finally, I will show how the national economy will 
benefit from a new layer of air transportation.
    Sadly, with the exception of the very top end of the market, the 
spirit of innovation has long been absent in general aviation, where 
growth contracted dramatically following airline deregulation in 1978. 
The reality is that general aviation has been sidelined to the domain 
of the elite few. Since its inception, Eclipse Aviation has 
demonstrated an unwavering commitment to return innovation and growth 
to general aviation. I founded Eclipse in 1998 to revolutionize air 
travel through a low-cost, high-performance jet that will deliver 
unprecedented levels of performance, efficiency and safety to 
customers.
    Before I go into detail about Eclipse or why we pioneered the VLJ 
market, I would like to briefly touch on the role of air transportation 
in our society and national economy. Recently, the U.S. economy has 
entered what some call a post-industrial phase. Employment growth is 
primarily in professions and services, and this type of employment is 
very flexible in its location. Consequently, the U.S. population has 
begun to shift toward the interior of the nation, where things like 
quality of life and cost of living are massively, measurably better. 
High-speed Internet access, express package delivery and the expansion 
of go anywhere phone numbers (i.e., cellular phone) are enabling this 
migration.
    And so, more than ever before, goods and people must be able to 
move freely between regions. Companies must have fast, flexible, safe 
and cost-effective access to destinations across the country. Small and 
medium communities must have viable links to each other. In short, a 
robust, broad and deep transportation network is more critical than 
ever to our Nation's economic growth and prosperity.
    Yet at the same time, our ground transportation system is 
weakening. Long distance passenger rails are a thing of the past and 
commuter trains are rare except in a couple of really specialized areas 
like Chicago, Boston and New York. The highway transportation system is 
ever more clogged, difficult and dangerous to navigate. The end 
result--people are increasingly interested in traveling by air.
    Yet in spite of the fact that smaller communities desperately need 
air transportation to drive business development and economic growth, 
the reality is that there is significantly less air service available 
today as measured by communities directly served. Virtually all of 
these communities have underutilized airports that can be used as 
economic growth engines. In the face of these challenges and nascent 
opportunities, the advent of the very light jet (VLJ) is playing a 
critical role in revitalizing the GA industry and improving our overall 
air transportation system.
    Eclipse Aviation has successfully designed, developed, certified--
and is now manufacturing and delivering the world's first VLJ--the 
Eclipse 500. To create the Eclipse 500, Eclipse used technologies and 
business practices forged in the technology industry to drive down cost 
while increasing performance. Eclipse applied innovation across every 
facet of its business to make the Eclipse 500 significantly easier and 
less expensive to operate than traditional business aircraft, and more 
efficient to certify and produce. Some of the groundbreaking 
innovations that we are applying to the Eclipse 500 include friction 
stir welding, the PhostrEx fire suppression system, electro-mechanical 
actuators and digital electronics with integrated software. These 
technologies are changing the status quo of what we recognize today as 
general and corporate aviation, and inspiring new and better methods of 
aviation transportation for the masses.
    The resulting Eclipse 500 is a high-performance aircraft with 
technology and capabilities normally found in jets costing many 
millions more. With an acquisition cost of one half of today's small 
jets and the lowest operating cost per mile of any jet, the Eclipse 500 
provides the lowest cost of jet ownership ever achieved. This 
breakthrough has made the benefits of jet transportation available to a 
broader segment of the population, and inspired an emerging generation 
of entrepreneurs to bring a new form of air travel to the flying 
public--the air taxi. It has also opened up a new world of convenient 
air transportation to a majority of the communities in the U.S. that 
are simply not served by commercial airlines, thereby enabling 
significant economic growth.
    Potential markets for the Eclipse 500 include owner operators, 
corporations, airman training institutions, same-day express services, 
and one of the most promising markets of all, the new air taxi 
industry. Testimony specific to the new air taxi industry will be 
presented by DayJet at today's hearing. For small to mid-sized 
companies, the availability of small affordable jets will open up the 
convenience and time savings of corporate transportation to new levels 
of company management. This will create much leaner fiscal operations, 
while providing new levels of service to customers in the field. These 
aircraft will also allow owner/operator pilots to conduct business and 
personal travel in jets offering sophisticated performance and safety 
features that were previously available only in high-end corporate and 
transport aircraft.
    The operational characteristics of the Eclipse 500 clearly 
demonstrate the aircraft's versatility. Although certified to operate 
at 41,000 feet at 370 knots, the Eclipse 500 is very efficient at lower 
altitudes and speeds. Many of the shorter trip profiles will have 
operators flying at altitudes from 20,000 to 30,000 feet. For the five 
hundred mile, two to three passenger trips that will constitute a 
significant portion of the workload of the Eclipse 500, those often 
underutilized altitudes will serve as the most efficient. Further, with 
the ability to land and take off from 2,500 foot runways, the Eclipse 
500 can utilize 10,000 (5,000 public and 5,000 private) landing 
facilities in the U.S. This will allow communities and remote 
geographic regions of our country that do not enjoy the safety and 
reliability of twin engine jet aircraft transportation, to become the 
beneficiaries of modern-day transportation, and the economic benefits 
that will follow.
    Bringing turbine safety to a whole new class of aircraft, the 
Eclipse 500's standard safety features rival those of aircraft costing 
millions more and include: autothrottle; color weather radar; a dual-
redundant flight management system with sophisticated aircraft 
performance computer; ``smart'' electronic checklists and an 
intelligent crew alert system. The state-of-the-art Eclipse 500 cockpit 
is designed for safety. For example, to ensure availability of critical 
flight data, the Eclipse 500 is equipped with redundant, high 
reliability, solid state electronic sensors and displays. In addition, 
both Primary Flight Displays (PFDs) and the Multi Function Display 
(MFD) have a reversionary mode, allowing them to transfer information 
to one of the other displays if required.
    Through digital electronics, the Eclipse 500 incorporates a level 
of systems integration and safety previously available only in advanced 
military aircraft and commercial airliners. This extensive level of 
aircraft systems integration, known as Avio in the Eclipse 500, is 
delivered through integral, redundant computer systems, and an advanced 
power distribution system. Avio systems contain extensive built-in-
testing capabilities that are used to constantly monitor and ensure the 
integrity of the aircraft. More than just an integrated avionics and 
instrument suite, Avio expands integration technology beyond the 
cockpit and applies it to the entire aircraft. Aircraft systems--
including avionics, engine operation, fuel system, flaps, landing gear, 
cabin pressure and temperature--are centrally controlled by Avio. Avio 
significantly reduces pilot workload by simplifying tasks, generating 
useful information, managing systems and assisting with 
troubleshooting. In fact, the Avio-equipped Eclipse 500 is more capable 
of operating in our current and future national airspace than most of 
the aircraft currently used in air carrier operations.
    There are a number of faulty assumptions about VLJs, and one of 
them is that they will be flown by inexperienced pilots. The reality is 
that the people who are purchasing these airplanes are not just 
beginning to learn how to fly. They are licensed, seasoned pilots who 
have earned multi-engine and instrument ratings from the FAA. As I will 
detail in a moment when I walk you through Eclipse's training process--
training will be done through the best aviation training school in the 
world. In all cases, the curriculum goes far beyond what the FAA 
requires and the core curriculum goes beyond all existing airline 
training programs. Moreover, this is not a matter of simply sitting 
through a course. Pilots will have to demonstrate proficiency.
    As the category leader, Eclipse's comprehensive approach to 
training demonstrates its unwavering commitment to safety and has set a 
very high bar for VLJ training overall. In 2005, Eclipse kicked off an 
unprecedented training partnership with United Airlines, a proven 
industry leader in cockpit resource management and crew safety 
innovations. This partnership is designed to provide Eclipse pilots 
with the most advanced flight training available in general aviation. 
The training program will provide a level of professional pilot 
training normally available only to commercial airline pilots. Eclipse 
takes its responsibility to create an environment for pilot success so 
seriously, it has committed to refund the deposit of any customer who 
cannot successfully complete its training program.
    Eclipse is actively participating in the FAA's Industry Training 
Standards (FITS) program. The FITS program uses scenario-based training 
and case studies of previous aviation accidents and incidents to 
provide a learning environment that more closely resembles day-to-day 
flight experiences.
    Eclipse's curriculum is unprecedented in the industry and is 
focused on creating safe pilots. The Eclipse pilot training program 
consists of multiple phases that provide training experiences from 
initial introduction to the Eclipse 500 to recurrent training. At the 
beginning of the Eclipse training program, pilots will have to complete 
a Flight Skills Assessment in a full-motion simulator focusing on 
instrument proficiency and airmanship skills. A written Pilot 
Qualification Review will be completed by each pilot in advance of the 
Skills Assessment. Each pilot will also be required to take the Myers-
Briggs Type Indicator personality test to help tailor the training 
program to their individual personality type. Based upon the results of 
the Skills Assessment, supplemental training may be required for some 
customers prior to beginning the Eclipse 500 Type Rating.
    After the flight skills assessment, each pilot will be provided 
with information on the basics of operating a jet, and will have to 
complete emergency situations training. The Jet Basics Self-Paced Study 
Course, in a CD format, provides an overview of jet aircraft and their 
operating environment. The topics covered in the course are: 
Introduction to Jet Engines; High Altitude Physiology; High Altitude 
and High Airspeed Aerodynamics; High Altitude Flight Planning; and, 
High Altitude Weather and Radar. The emergency situations training will 
provide hands-on upset recovery training in Eclipse's L-39 jet. 
Further, in addition to classroom work on physiology and hypoxia, the 
pilot candidates will experience actual hypoxia training with a mixed 
gas simulator.
    After all of this foundational training is complete, pilots will 
transition to the Eclipse 500 type certificate transition training. The 
training is comprised of four parts. They include: self-paced study of 
the Eclipse 500 aircraft systems; classroom training; simulator 
training; and, actual flight training in the Eclipse 500. The type 
rating transition course will provide classroom instruction that 
emphasizes FITS scenario-based training to build good judgment. 
Following completion of the type rating course, each pilot will take a 
type rating examination in the Eclipse 500, or in a full-motion 
simulator once the simulators are certified.
    Depending upon the pilot's experience level, following completion 
of the type rating examination, some pilots will receive their type 
rating to fly the Eclipse 500 in single-pilot operations. Others will 
be required to fly with experienced mentor pilots, which is similar to 
an airline-style initial operating experience. This pilot mentor 
program will include operations in high-density traffic areas, the 
high-altitude weather environment, and will generally ensure that the 
airman displays the proper proficiency to operate as a single pilot in 
the jet environment. Completion of the mentor program is not based upon 
a predetermined number of hours flown with the mentor pilot, but rather 
is based upon the previously mentioned display of proficiency.
    Recurrent training will be required for all Eclipse 500 pilots. The 
frequency of recurrent training will be determined by individual pilot 
skill level and experience. For the more experienced pilot, one-year 
recurrent training will be the norm. For the pilots requiring an 
initial mentor program experience, six-month recurrent training will be 
an initial requirement. Recurrent training will also include web-based 
home study, classroom review and a proficiency check in a simulator.
    I would now like to address some of the confusion that is emerging 
about the integration of VLJs into our national airspace. The FAA and 
Joint Planning and Development Office (JPDO) are doing very important 
work to modernize our national air transportation system through the 
Next Generation Air Transportation System (NGATS) initiative. A recent 
article by a member of the Strategy, Advanced Traffic Management group, 
The Boeing Company, illustrated that the need to modernize our Air 
Traffic Control (ATC) system is necessary to simply move away from the 
1950s technology that is in place today, and completely utilize the 
system efficiencies and increased safety available through NGATS 
technology. Journal of Air Traffic Control, January-March 2006, 
(Attachment ``1'', page 43).
    The article also dealt with misconceptions surrounding VLJs and 
airport congestion. Specific to congestion, the reality is that VLJs 
will neither require nor seek regular access to major hub airports. The 
FAA data supports this with general aviation operations accounting for 
only 6 percent of the operations at the Operational Evolution Plan 
(OEP) 35 airports. In addition, there is absolutely no correlation when 
comparing the 20 busiest general aviation airports to the 20 busiest 
airports for airlines. As the article states, ``The VLJ business model 
is based on providing convenient, personal point-to-point services 
through non-congested airports. VLJ passengers will be time sensitive 
and convenience-minded, and they will use VLJs precisely to avoid the 
hassles associated with large hubs. Second, VLJ aircraft are 
specifically designed to operate from runways as short as 3,000 feet 
(including many grass strips). This makes them ideal for providing 
point-to-point services to most of the 5,000+ U.S. airports serving 
small to medium sized markets.'' Journal of Air Traffic Control, 
January-March 2006, (Attachment ``1'', page 42).
    In fact, even if a VLJ operator decides to operate into a hub 
airport, that operation will not cause congestion. ``The effect of VLJ 
operations into hub airports will be minimal for a number of reasons: 
VLJ pilots will need adequate prior experience and will receive 
rigorous training, equivalent in many cases to that for commercial 
pilots; VLJ aircraft will have advanced integrated avionics to provide 
enhanced pilot situational awareness, enable seamless traffic flow 
integration and optimal spacing with commercial traffic flows; VLJs are 
capable of operating at speeds compatible to those of commercial jet 
aircraft, throughout the terminal area and until well inside the final 
approach fix; VLJ climb and descent rates are compatible with 
commercial turbojet aircraft; VLJ aircraft can land and depart safely 
using shorter runways, unusable by commercial jet traffic. Even 
regional jets require those same longer runways. On intersecting 
runways, VLJ aircraft are capable of routine (LAHSO) Land and Hold 
Short Operations; and finally, to enhance traffic integration even 
more, new procedures that take advantage of VLJ performance and 
avionics capability can be developed.'' Journal of Air Traffic Control, 
January-March 2006, (Attachment ``1'', page 42).
    Some believe that VLJs will clog our airspace and create gridlock 
in the skies. The reality is that there is significant available 
airspace to accommodate these new aircraft. Under Marion Blakey, great 
progress has been made and the transformation to NGATS has already 
begun. Last year we doubled the capacity of airspace system between 
FL290 and FL410 with RVSM, so there is plenty of capacity in those 
altitudes. WAAS is now a reality, and RNAV and RNP are happening. 
Moreover, it is important to note the airspace is three dimensional. 
This is not a two lane highway where you are permanently stuck behind 
the truck in front of you. VLJs are technologically advanced and 
nimble. They are more than capable of getting out of the way of faster 
airplanes. Moving around in the airspace is something airplanes do 
everyday, most often when the commercial airlines go up and down in 
altitude looking for a smooth ride.
    As stated in the Journal of Air Traffic Control, ``Commercial jet 
traffic will continue to dominate in the higher altitudes. VLJ 
operations will generally be on shorter routes under 600 statue miles 
and mainly at altitudes below those on longer-range commercial 
operations. Sometimes, especially on longer stage lengths, VLJs will 
want or need to operate at the higher altitudes, but even then VLJs 
will not disrupt en route traffic flows, even though they cruise at 
0.64 mach, slightly slower than commercial airliners. Current Flight 
Management System (FMS) technology already enables faster moving 
aircraft to establish offset tracks so as to pass slower aircraft en 
route.'' The article goes on to say, ``In the ongoing debate about the 
impact of VLJ operation, the question of VLJ speed compatibility has 
been raised frequently. In large measure, this is a red herring. The 
commercial and business fleets of today operate at a variety of climb, 
cruise, descent, and approach speeds, based not just on aircraft type, 
weight, and performance differences but also on variations in company 
policies. Even with today's 1950s ATC technology, controllers are able 
to integrate traffic of varying speeds quite efficiently, so VLJs will 
add no significant complexity.'' Journal of Air Traffic Control, 
January-March 2006, (Attachment ``1'', pages 42&43).
    The current hub-and-spoke system used by the airlines is reaching 
capacity regardless of the integration of VLJs into the NAS, and as was 
established in 1997, it is this airline hub and spoke operation that 
drives the majority of system cost. VLJs will not change this dynamic. 
VLJ operators and owner pilots will use their aircraft to go where the 
airlines don't, avoiding the congestion associated with the hubs. 
Moreover, when these airplanes are flown by air taxi operators they 
will pay the commercial ticket tax. Because the air taxi charge will 
likely exceed a typical coach ticket, the typical air taxi passenger 
will end up paying more in taxes than the scheduled airline passenger.
    It would be irresponsible not to point out the elephant in the 
room--and that is the fact that airlines see air transportation as a 
zero sum game and are acting to limit air transportation capacity vs. 
expand it. In other words, fearing they will lose passengers to VLJ 
operations, the airlines are propagating a series of myths to impede 
the air transportation expansion our country so desperately needs. This 
energy is misdirected and harmful to our economic future. As mentioned 
earlier, most VLJ passengers want to travel where the airlines do not 
offer service and will be choosing VLJ air transportation in lieu of 
their cars. Additionally, the ample airspace capacity and new aircraft 
capabilities exist to make this expansion possible today. It is clear 
that the sophisticated technologies that are available on today's VLJs, 
including ADS-B, WAAS and LPV, are not advancements the airlines are 
interested in retrofitting on their fleet.
    I would like to close by recognizing the significant economic 
impact of the VLJ market on the Nation's economy. At EAA AirVenture 
2006, Acting Secretary of Transportation Maria Cino, prior to awarding 
the Eclipse 500 type certificate, stated that ``air travel drives 
economic growth.'' At the same event, FAA Administrator Marion Blakey, 
said ``Eclipse is more than about just building a plane . . . it's 
about building a company, it's about building our economy.''
    A recent study, conducted by CRA International and based upon FAA 
VLJ market projections, estimated a potential annual VLJ economic 
impact of $24 billion in output, $6.9 billion in earnings and 178,000 
jobs in 2017. Based upon the unprecedented market acceptance of the 
Eclipse 500 VLJ, there is a very real potential for higher production 
of VLJs than the FAA has forecast. Increasing the FAA projection by 50 
percent (for a total fleet size of 7,425 aircraft), economic activity 
in 2017 related to VLJs would total over $32 billion in output, $9.4 
billion in earnings, and over 249,000 jobs. If the forecast of VLJ 
production is increased beyond the FAA projection to reflect an 
additional increment of corporate sales equal to the level of aircraft 
purchased by air taxi operators (for a total fleet size of 8,250 
aircraft), economic activity in 2017 related to VLJs would total over 
$35 billion in output, $10.4 billion in earnings, and over 276,000 
jobs. The Economic Impact of Very Light Jets, CRA International, May 
2006. * More specific information on the potential economic impact of 
the VLJ market on our Nation's economy will be presented by CRA 
International at today's hearing.
---------------------------------------------------------------------------
    * The information referred to has been retained in Committee files.
---------------------------------------------------------------------------
    Thank you for the opportunity to testify before the Senate 
Committee on Commerce, Science, and Transportation Subcommittee on 
Aviation. I hope that my comments have assisted in your understanding 
of the emerging VLJ market; the potential impact of VLJs on our society 
and economy; and the incorporation of the VLJ into the NAS.
                             Attachment 1--

           Journal of Air Traffic Control--January-March 2006

               Very Light Jets, Impacts on NAS Operations

(By Captain J Leslie Robinson, Aviation Consultant, Neil Planzer, Vice 
   President, Strategy, Advanced Air Traffic Management, The Boeing 
                                Company)

    ``Without the unique benefits of air transportation, our quality of 
life would be dramatically reduced. Whether those benefits will 
continue to be available in the future will depend on actions we begin 
taking now. The system is already showing signs of stress and it is 
clear that projected demand will soon surpass the system's capacity.'' 
\1\
---------------------------------------------------------------------------
    \1\ JPDO. Next Generation Air Transportation System Integrated 
Plan. U.S. GPO: Washington, 2004. P.2.
---------------------------------------------------------------------------
    ``Now imagine an alternative world where a traveler or shipper 
determines the departure and arrival times--instead of being confined 
to a predetermined schedule . . . Think of the possibilities if owning 
a recreational plane, a micro-jet, or a share of a jet capable of 
flying in nearly all weather conditions were affordable to more 
Americans.'' \2\
---------------------------------------------------------------------------
    \2\ Ibid. P.i.
---------------------------------------------------------------------------
    In the Next Generation Air Transportation System Integrated Plan, 
published in December 2004 by the Joint Planning & Development Office, 
JPDO projects a range of outcomes by year 2025 that can include 
increases in demand to a level of up to 3<greek-e> times the number of 
operations in today's current National Airspace System (NAS).
    The vital work of the FAA and JPDO in transforming the NAS from its 
current 1950s technology to a modern information-centric, network-
enabled system of systems is finally gaining traction inside the 
Beltway. Nevertheless, the sheer magnitude of the systems-of-systems 
planning, funding, and engineering required, as well as the 
accompanying political and social issues, continue to stall NAS 
modernization. If this delay continues, the result could be monumental 
air traffic gridlock, with unimaginable economic and social 
consequences. No one can predict when this could occur, in some measure 
because the timeline can be affected by several disruptive 
technologies.
    Some of these technologies will likely have minimal effects on the 
NAS in the near to mid-term. The integration of unmanned or remotely 
operated aircraft into the NAS does not seem likely in the near to mid 
term. The NASA Small Aircraft Transportation System (SATS) concept, 
which suggests that someday individuals with little or no aviation 
skills may be operating private air vehicles controlled and separated 
from each other by computer systems, seems even more remote.
    In contrast to these more remote technologies, however, there is a 
third very real, disruptive technology approaching in the very near 
term--the Very Light Jet (VLJ). Next year, with virtual certainty, 
these small, moderately priced, six-passenger twin-engine jets will be 
certified and will begin to populate the NAS in increasing numbers, 
enabling personal and on-demand, point-to-point air service to most of 
the Nation's approximately 5,400 airports.
What Industry & Government Are Saying About the VLJ
    The pending introduction of the VLJ has raised some concerns. 
Airline operators see a possibility that the skies and airports they 
use will suddenly be filled with large numbers of smaller and slower 
aircraft. Increased airport and airway congestion could mean more 
delays and higher operating costs for an industry that is already 
hanging by a thread.
    At the same time, the FAA, NASA, and the JPDO have expressed 
similar concerns regarding the potential impact of VLJs on the NAS Air 
Traffic Control System:

  <bullet> ``The FAA predicted this spring that 4,500 microjets will be 
        flying by 2016.'' \3\ To put this in perspective, according to 
        the Boeing 2005 Current Market Outlook, the 2004 year-end 
        global fleet of commercial aircraft consisted of just 16,778 
        aircraft, and by 2025 that fleet is expected to more than 
        double to 35,287. \4\
---------------------------------------------------------------------------
    \3\ Levin, Alan. ``High Tech Gizmos Propel Aviation into the 
Future.'' USA Today: Washington, 2005.
    \4\ The Boeing Company. Current Market Outlook. The Boeing Company: 
Seattle, 2005. P. 11.

  <bullet> ``An FAA computer simulation last year predicted that flight 
        delays would climb more than 300 percent by 2010 if microjets 
        (VLJs) arrived as expected and the Agency made no improvements, 
        said its author, FAA mathematician Doug Baart.'' \5\
---------------------------------------------------------------------------
    \5\ Ibid.

  <bullet> ``NASA says the number (of VLJs) could be even higher. It 
        estimates the market at more than 8,000 by 2010.'' \6\
---------------------------------------------------------------------------
    \6\ Ibid.

  <bullet> The JPDO Next Generation Air Traffic System Integrated Plan 
        states that ``a shift of 2 percent of today's commercial 
        passengers to micro-jets that seat 4-6 passengers would result 
        in triple the number of flights in order to carry the same 
        number of passengers as today.'' \7\
---------------------------------------------------------------------------
    \7\ JPDO. Next Generation Air Transportation System Integrated 
Plan. U.S. GPO: Washington, 2004. P. 5.

    These rather stark projections raise two important questions. 
First, can VLJ aircraft be assimilated seamlessly into today's NAS? And 
second, would a rapid growth in VLJ deliveries in the mid- to long term 
overwhelm the air traffic control system and create widespread 
gridlock, long before any Next Generation Air Traffic System (NGATS) 
could be implemented? Are these concerns justified? Let's take a look 
at the issues.
The Very Light Jet & ``Disruptive Technology''
    Recently, some aviation experts have referred to the VLJ as a 
``disruptive technology,'' \8\ Clayton M. Christensen of Harvard 
Business School originated the term in his 1997 book The Innovator's 
Dilemma. Christensen described ``disruptive technology'' as ``a 
technology bringing to market a very different value proposition, . . . 
products typically cheaper, simpler, smaller, and frequently, more 
convenient to use.'' \9\ He also said that a disruptive technology can 
initially appear to be of limited application and minimal consumer 
appeal, but can ultimately trigger changes (sometimes deadly) to 
industries that fail to recognize these changes and continue to rely on 
existing business models and associated ``sustaining technology.''
---------------------------------------------------------------------------
    \8\ Christensen, Clayton M. The Innovator's Dilemma, When New 
Technologies Cause Great Firms to Fail, Harvard Business School Press: 
Cambridge, 1997. P. xv.
    \9\ Ibid, Page xv.
---------------------------------------------------------------------------
    With respect to the airline industry, it can be argued that VLJs 
will provide business and upscale leisure travelers with a cheaper, 
simpler, smaller and more convenient point-to-point substitute for 
traditional hub airline services. Since airlines rely heavily on 
revenues from these valuable passengers, substantial skimming of that 
traffic could have major consequences.
    FAA and other air traffic management experts are also concerned 
about the possible impact of VLJs on the ATC system. If just a small 
amount of traffic were skimmed to VLJs from commercial carriers, it 
could mean a significant increase in the number of NAS operations. And 
if the era of personal air vehicles is indeed coming soon, VLJ-like 
traffic volume could grow rapidly.
    FAA and JPDO are busily trying to develop a Next Generation Air 
Traffic System based on a timeline intended to meet current projections 
of traffic. The possibility of early, rapid VLJ growth could mean that 
aviation gridlock might come a lot earlier than expected. So let's take 
a look at the VLJ. Will it be a ``disruptive technology,'' and just 
exactly what will its impact be on the NAS in the near to far term?
The Near-Term Operational Impact of the VLJ
    Very Light Jets are a different breed. Serving stage lengths of up 
to 1,300 nautical miles, they are capable of operating at altitudes of 
up to 41,000 feet, carrying 4 to 6 passengers rapidly and comfortably 
above the weather and in airspace customarily used by commercial 
airlines. Let's examine the possible impact of VLJs, from an operations 
perspective.
VLJ Aircraft--Safety & Equipage
    The Eclipse is a great example of VLJ aircraft design. Designed as 
an integrated airframe and avionics platform, these aircraft are 
subjected to rigorous certification standards set by the FAA. And 
precisely because these aircraft are new, integrated designs, not just 
rehashes of old airframes with new black box avionics, they are getting 
even more rigorous attention from FAA. VLJs will clearly be safe upon 
certification!
    As to equipage, most VLJs will include advanced integrated avionics 
as standard or optional equipment. For example, the Eclipse will be 
equipped to support:

  <bullet> ADS-B for precision surveillance monitoring;

  <bullet> Dual GPS with WAAS for precision navigation;

  <bullet> Auto-throttles;

  <bullet> Data link communications capability to connect to tomorrow's 
        network-centric ATM architecture;

  <bullet> Color Weather Radar;

  <bullet> Dual FMS (Flight Management Systems) for trajectory-based 
        operations in today's environment and in the NGATS of tomorrow.

  <bullet> The only option the Eclipse does not yet include is data 
        link to FMS integration linkage.

    In short, the typical VLJ will distinguish itself as better 
equipped than many of the aircraft in today's commercial fleets.
The Pilots--Training and Qualifications
    A VLJ pilot will be required to hold an FAA Pilot certificate with 
type rating, which implies appropriately high levels of training and 
experience. In addition, because VLJ manufacturers are particularly 
sensitive to the need for high-quality training, they are taking 
training curricula one step further. For example, Eclipse Aviation 
signed an agreement with the United Services division of United 
Airlines to provide a mandatory training program similar to that of 
commercial airline pilots.
    There are still a few unanswered questions as to whether VLJs will 
be certificated to fly with a single pilot crewmember, but current 
evidence supports such a step for several reasons:

        1. Meticulous attention has been given by both industry and FAA 
        to new advanced training standards for high performance 
        aircraft (i.e., FITS--FAA/Industry Training System);

        2. The VLJ's integrated aircraft design and advanced avionics 
        platform will help make flight training and flight operations 
        much safer, yet much simpler;

        3. Using advanced VLJ avionics capability, pilots can maintain 
        higher levels of situational awareness.

    This combination of rigorous training and sophisticated design will 
place VLJ pilot operating capabilities and operating environments near 
to, at or even above the sophistication and capability of many airline 
cockpits.
Air Traffic Operations--Near- to Mid-Term VLJ Impacts
Airport and Terminal Area Operations
    There is speculation that even in the near to mid-term VLJ traffic 
will trigger congestion or gridlock at major hub airports. They won't, 
for several reasons.
    With few exceptions, VLJs just won't want access to major hub 
airports. The VLJ business model is based on providing convenient, 
personal point-to-point services through non-congested airports. VLJ 
passengers will be time-sensitive and convenience-minded, and they will 
use VLJs precisely to avoid the hassles associated with large hubs.
    Second, VLJ aircraft are specifically designed to operate from 
runways as short as 3,000 feet (including many grass strips). This 
makes them ideal for providing point-to-point services to most of the 
5,000+ U.S. airports serving small to medium sized markets.
    Some of those airports lack the runway, taxiway, or terminal 
facilities to support larger aircraft. Others serve markets for which 
there is no business case for commercial service. Still others have 
some commercial service but offer few point-to-point travel options, 
forcing travelers to connect through congested hub airports. For these 
communities, the VLJ will provide convenient new service options. This 
is their market niche. Narrow body jets and RJs just can't serve most 
of those cities.
    Third, of all the reasons why VLJs won't frequent major hub 
airports, the biggest one is pure economics. Projected passenger cost-
per-mile for VLJ travel will be equal to or higher than full commercial 
coach fares. VLJs will also probably provide no frequent flier 
benefits. Therefore, business or upscale leisure travelers flying 
through hub airports will be inclined to choose a traditional airline. 
VLJ travel at its currently projected costs will never be a viable 
economic substitute for commercial travel at major hub airports.
    But what if despite all these reasons, VLJ operators decide to 
operate into hub airports. Will those operations disrupt traffic or 
induce gridlock? Absolutely not! The effects will be minimal, for the 
following reasons:

  <bullet> VLJ pilots will need adequate prior experience and will 
        receive rigorous training, equivalent in many cases to that for 
        commercial pilots;

  <bullet> VLJ aircraft will have advanced integrated avionics to 
        provide enhanced pilot situational awareness, enable seamless 
        traffic flow integration and optimal spacing with commercial 
        traffic flows;

  <bullet> VLJs are capable of operating at speeds compatible to those 
        of commercial jet aircraft, throughout the Terminal area and 
        until well inside the final approach fix;

  <bullet> VLJ climb and descent rates are compatible with commercial 
        turbojet aircraft;

  <bullet> VLJ aircraft can land and depart safely using shorter 
        runways, unusable by commercial jet traffic. Even regional jets 
        require those same longer runways.

  <bullet> On intersecting runways, VLJ aircraft are capable of routine 
        (LAHSO) Land and Hold Short Operations; and finally

  <bullet> To enhance traffic integration even more, new procedures 
        that take advantage of VLJ performance and avionics capability 
        can be developed.

    In summary, for the near and mid term, Very Light Jet technology 
will not only bring point-to-point travel convenience and enhanced 
economic development to many smaller towns and cities, it will do so 
with minimal impact on the existing crowded hubs frequented by 
traditional air carriers.
En Route Operations
    It has been suggested that VLJs will cause or exacerbate en route 
traffic congestion, either by their growing numbers or because of their 
somewhat slower (mach .64) cruise speeds. This is certainly not the 
case in the near to midterm.
    There is ample available en route airspace to accommodate new 
aircraft, even with today's antiquated ATC system. Commercial jet 
traffic will continue to dominate in the higher altitudes. VLJ 
operations will generally be on shorter routes under 600 statute miles 
and mainly at altitudes below those of longer-range commercial 
operations.
    Sometimes, especially on longer stage lengths, VLJs will want or 
need to operate at the higher altitudes, but even then VLJs will not 
disrupt en route traffic flows, even though they cruise at 0.64 mach, 
slightly slower than commercial airliners. Current Flight Management 
System (FMS) technology already enables faster moving aircraft to 
establish offset tracks so as to pass slower aircraft en route. And in 
the near future, the addition of high altitude ``tubes'' with passing 
lanes should enhance that capability.
The General Question of VLJ Speed Compatibility--Terminal and En Route
    In the ongoing debate about the impact of VLJ operations, the 
question of VLJ speed compatibility has been raised frequently. In 
large measure, this is a red herring. The commercial and business 
fleets of today operate at a variety of climb, cruise, descent, and 
approach speeds, based not just on aircraft type, weight, and 
performance differences but also on variations in company policies. 
Even with today's 1950s ATC technology, controllers are able to 
integrate traffic of varying speeds quite efficiently, so VLJs will add 
no significant complexity.
Air Traffic Operations--Mid- to Long-Term VLJ Impacts
    We have discussed the near- to mid-term integration of Very Light 
Jets into NAS operations and concluded that their impact will be 
minimal. It's time to take on the larger question--will the VLJ prove 
to be a ``disruptive technology'' in the mid- to long-term?
    Often the term ``disruptive technology'' seems to have mostly 
negative connotations, perhaps due to the havoc such technology can 
sometimes create in an industry or institution that fails to recognize 
and adapt to change. Yet ``disruptive technology'' is generally a 
positive thing in the longer term and is accompanied by periods of 
exciting growth. Such periods of innovation and growth should be 
expected and encouraged, if our goal is for the U.S. economy and 
domestic productivity to continue to grow.
    VLJ technology could have this kind of substantial positive 
economic impact and could emerge as a ``disruptive technology,'' but 
the results may also create increased demand for ATC and airport 
services:

  <bullet> By bringing personal and on-demand travel within the reach 
        of the small business and middle class user, the VLJ may usher 
        in a new paradigm of personal travel freedom and mobility. This 
        could result in substantial, as yet unanticipated, increases in 
        future travelers and NAS operations, with increased congestion 
        in en route airspace;

  <bullet> By providing a jet aircraft tailored to serve smaller 
        airports and markets, the VLJ can broaden airport usage in the 
        NAS to include many more currently under-served airports. This 
        could mean increased demand for terminal services at those 
        airports;

  <bullet> By answering the need for personal and on-demand point-to-
        point air service, driven by user needs, the VLJ can enhance 
        domestic productivity and economic activity, while linking 
        smaller markets directly to the domestic and global economies. 
        This could generate increased needs for VLJ cargo operations.

  <bullet> By including a fully integrated aircraft and avionics 
        platform, the VLJ can assume a leadership role in advancing the 
        JPDO NGATS, by assuring that VLJs will be full and efficient 
        participants in the NGATS of tomorrow.

    All this new activity could add to the scope of the overall NAS 
congestion problem, which is largely focused on hub airports. A 
convergence with possible new terminal demand at VLJ airports, plus 
increased en route operations, could be the makings of an ATC ``Perfect 
Storm'' of gridlock.
The Solution--Demand Management or Capacity Enhancement
    Regrettably, instead of concentrating our collective efforts on 
capacity enhancement and NGATS, there are those who favor demand 
management solutions. In particular, the idea of user fees or other 
surcharges for Regional Jets has re-emerged for VLJs. This is an 
unfortunate and distracting debate.
    Demand management is a flawed concept that constrains innovation 
and economic activity, while distorting market forces. If a new era of 
personal travel options is possible, we should do everything possible 
to encourage the development of an NGATS in which traditional air 
carrier services can operate in harmony with personal air vehicles such 
as VLJs. We should not try to constrain or inhibit innovation by 
disincentives such as demand management.
    Instead of wasting time considering ways to generate higher fees in 
support of current inefficient, antiquated systems, shouldn't we tackle 
the real problem? Isn't it time for the FAA, Congress, and industry to 
make jointly a full commitment to a Next Generation Air Traffic System?
Conclusion
    Very Light Jet technology may represent the beginning of a new and 
exciting era of increased personal and on demand travel. If the 
business model succeeds, VLJ technology can broaden usage of the NAS 
and its under-served airports, and it can boost the economies of small 
to medium sized communities, which today may lack adequate point-to-
point connections to domestic and global market places.
    Such a potential revolution in personal travel can have significant 
beneficial effects on domestic productivity and economic growth, but 
``disruptive technologies'' sometimes leave casualties in their wake, 
often because the institutions and industries affected either fail to 
recognize the paradigm shift or else refuse to deal with it.
    Time is growing short. FAA, Congress, and industry should recommit 
to forging with all possible speed the partnership necessary to assure 
timely transformation of our antiquated air traffic management system 
into the scalable, network-enabled system of systems required to 
satisfy tomorrow's demand, and in so doing assure continuing U.S. 
economic growth and opportunity.

    Senator Burns. We thank you.
    And now we hear from Mr. Edward Iacobucci, President and 
Chief Executive Officer of DayJet Corporation, down in Delray, 
Florida. Thank you very much for coming.

       STATEMENT OF EDWARD E. IACOBUCCI, PRESIDENT/CEO, 
                       DayJet CORPORATION

    Mr. Iacobucci. Thank you. Good morning, Chairman Burns, 
Senator Rockefeller, and other Members of the Committee. I want 
to thank you for the opportunity to testify here to you--with 
you today on the topic of VLJs, and specifically the work that 
my company has been doing in conjunction with the FAA, the 
JPDO, NASA, TSA, and our partners, Eclipse Aviation, over the 
past 3 years.
    The mission of our company is to develop and deploy what we 
consider to be the world's first commercial--what we call 
``per-seat, on-demand'' service, as opposed to air-taxi. It's a 
seat-oriented on-demand system. It's a regional air 
transportation system, and it's exclusively deployed between 
secondary markets, using community airports.
    The Jet Age in the United States has delivered a very 
affordable transportation methodology. It's ushered in a 
broadbased economic opportunity, and it's done so by connecting 
major cities in the--over the past years. However, despite 
that, trips of 600 miles or less remain--have been, and remain, 
a frustrating experience and very inefficient for millions of 
travelers. According to DOT statistics, there were 29 percent 
fewer scheduled flights less than 500 miles in length in 2005 
than in 2000--only a 5-year period, 29-percent reduction. While 
scheduled flights at small regional airports still exist, they 
dropped, for the same period, by over 17 percent. For many 
years--in fact, for decades--broadbased subsidies and programs 
have failed to bring self-supporting commercial air service to 
the secondary communities of our country. Even in the case 
where air flights were available, typically it involves 
multiple steps with long layovers, unpredictable layovers 
through a large hub, and it costs time and money, and, as a 
consequence, a lot of regional travelers have taken to driving. 
In fact, BTS travelers survey--here, let me make sure I quote 
it properly--is 136 million of the 192 million business trips 
identified in that survey in 2003 were spent driving to 
regional meetings 100 to 750 miles away.
    As I said, our corporate mission is to make direct on-
demand air transportation between secondary markets a 
commercial reality. Our passengers will enjoy safe and secure 
transportation to these markets and produce economic 
development opportunities at--in those markets.
    For example, earlier this year, DayJet announced our first 
five locations. We've actually announced our southeast region 
as our first region; and the first five locations, within that 
region.
    The VLJs themselves are going to enable new travel options 
and, to the cost point, allow us to aggregate passengers in 
ways that haven't been done before. Our marketing studies, 
focus groups, agent-based technology shows us that most of the 
travelers will come off the highway. Our optimization systems 
show us that these services can be deployed at scale on a 
profitable basis.
    We will connect smaller communities, metropolitan exurbs, 
and rural areas with point-to-point service, strictly point-to-
point service. Our missions are all 100 to 600 miles. And 
seldom will we ever have to enter Class B airspace.
    As was mentioned before, all our flights are between--
somewhere between 18,000 and 30,000 feet, and we plan to deploy 
the Eclipse 500 using two-person crews. Despite the fact that 
we could do it with one, we're going to do it with two, as part 
of our business model.
    The training is done in conjunction with Eclipse--work that 
we're doing with Eclipse, United Airlines. And the training is 
going to be done to standards that are well beyond the typical 
standard that you would see in FAR 135 operations.
    As far as security goes, we will plan to implement the 12-5 
rule. Again, even though the aircraft is only 5700 pounds, we 
will be putting in place all the rules that are in place today 
for 12,500-pound aircraft. Our pilots, maintenance personnel, 
will have 10-year background checks. Parking lots are going to 
be monitored--ramps, fence, passengers cleared through TSA 
lists and escorted to and from the airplanes.
    I could talk quite a bit more about the work that we've 
been doing with the air traffic control and NASA, in terms of 
developing some of the new technologies within our network as 
we grow it. I'm going to run out of time, so that I'm--so that 
I'll leave that for the questions and answers. The topics have 
been covered.
    But, in short, we believe that the network-enabled 
operations that we're developing view DayJet as a network of 
airplanes, not individual airplanes, that are all managed by a 
system. That innovation and the innovative business model will 
bring new business to communities, new transportation options, 
and ultimately economic growth.
    Thank you so much.
    [The prepared statement of Mr. Iacobucci follows:]

       Prepared Statement of Edward E. Iacobucci, President/CEO, 
                           DayJet Corporation
    Good morning Chairman Burns, Senator Rockefeller, and Members of 
the Subcommittee. Thank you for the opportunity to testify today on the 
topic of very light jets (VLJs) and the work we are doing together with 
the Federal Aviation Administration (FAA), the Joint Planning and 
Development Office (JPDO), National Aeronautics and Space 
Administration (NASA), Transportation Security Administration (TSA) and 
Eclipse Aviation to develop and deploy the world's first commercial 
``per seat--on demand'' regional air transportation service between 
secondary communities using community airports.
    In the United States the jet age has delivered safe, affordable 
transportation ushering in broad based economic opportunity by 
connecting major cities. Yet trips of 600 miles or less remain 
frustrating and inefficient for millions of travelers. According to the 
Department of Transportation (DOT) there were 29 percent fewer 
scheduled flights less than 500 miles in 2005 than in 2000, while 
scheduled flights at small regional airports dropped 17 percent during 
the same period. For decades, despite concerted effort, a variety of 
subsidies and programs have failed to bring broad-based, sustainable, 
self-supporting commercial air service to secondary communities and 
rural areas of the Nation. Even in the case where flights are 
available, multiple legs must be flown through a hub airport costing 
time and money. Often regional trips require a forced overnight stay 
due to flight scheduling. As a result, 136 million of the 192 million 
business trips identified in the 2003 BTS Business Travelers Survey 
were spent driving endless hours to regional meetings 100 to 750 miles 
away.
    DayJet's corporate mission is to make direct on-demand jet air 
transportation between secondary markets a commercial reality. DayJet 
passengers will enjoy affordable, safe and secure air transportation 
between these markets and our air transportation service will expand 
local economic development opportunities in the communities we serve. 
Earlier this year DayJet announced our initial service area in the 
southeastern region including Florida, Georgia, Alabama, Mississippi, 
North Carolina, South Carolina and Tennessee.
    VLJs enable new travel options. DayJet's new ``per seat, on-
demand'' * service lowers the cost for individual travelers traveling 
on a VLJ by aggregating other passengers on the aircraft (for a total 
of up to three (3) passengers per flight) even as we manage all of the 
factors of logistics and costs of providing the air service. Our 
marketing studies, focus groups and agent-based demand generation 
technology shows us that most of our travelers come off the highway. 
Our Advanced System Technology for Real Time Operations (ASTRO) makes 
it possible to establish a profitable business to serve customers with 
the highest levels of safety, security and a great customer experience.
---------------------------------------------------------------------------
    * The report ``Per Seat, On-Demand Jet Services--How to Keep Air 
Transportation Moving at the Speed of Business'' has been retained in 
Committee files.
---------------------------------------------------------------------------
    DayJet will connect smaller communities, metropolitan exurbs and 
rural areas with a point-to-point service. With missions in the 100 to 
600 statute mile range our short flights will avoid entering Class B 
air space. Instead we will fly in under-utilized air space at flight 
levels typically in the 18,000 ft to 30,000 ft range. DayJet plans to 
fly our Eclipse 500 jets using a two-person crew meaning we will train 
and fly with two pilots. Our business plan supports this level of 
personnel. We will train our flight crews in a program that is similar 
to that of a traditional airline. Eclipse Aviation in cooperation with 
United Airlines will train our pilots using the most up-to-date methods 
and equipment including flight simulation. As a FAA FAR 135 
certificated operator we choose to train our pilots and maintenance 
personnel at a level that goes above and beyond minimal requirements. 
We do the same when it comes to security.
    DayJet will follow the TSA 12-5 rule for security, setting a higher 
standard for an aircraft in this weight class beyond today's TSA 
requirements. Our pilots and maintenance personnel will have 10 year 
background checks, our parking lots will be monitored, ramps will be 
fenced and all passengers will be escorted to and from our aircraft. 
While this is not required by TSA at this time and many community 
airports do not have security practices, at DayJet we believe security 
and safety must be nurtured and lived everyday. This is why our 
training, best practices and corporate culture are founded upon of 
safety, security and accountability.
    DayJet's investments in next generation technology are a factor 
driving modernization of the National Air System (NAS). Working in 
partnership with the FAA over the past 3 years and leveraging technical 
research and development by NASA, we have identified key areas in which 
operational best practices combined with new technology will be 
implemented. These implementations on our aircraft and in our training, 
maximize safety and operational availability while minimizing our 
impact on workloads for air traffic control (ATC). Our investments in 
on-board technology and in training will allow DayJet to use new 
Required Navigation Performance (RNP) routes and Wide Area Augmentation 
System (WAAS) lateral precision vertical (LPV) approaches. We will 
equip our fleet with Automatic Dependent Surveillance Broadcast (ADS-
DB) transponders allowing for much improved ground-based surveillance. 
As ``ADS-B in'' capability becomes available, we expect to reap the 
benefits of reduced minimum separations and much improved situational 
awareness. These innovations result in lower costs for all parties 
while enhancing safety through greater flight precision in the 
utilization of air space and in a greater variety of weather--all 
meaningful near term advantages of modernization.
    In the longer term our active participation on the JPDO's Agile 
Airspace Integrated Product Team (Agile IPT) provides an appropriate 
dialogue mechanism for technical input and the sharing of information 
for future planning purposes. As a business person with an in-depth 
understanding of digital technology, who played a role in shaping the 
information networked age over the past two decades, I believe that the 
JPDO's development of the Concept of Operations and the Enterprise 
Architecture working toward Network-Enabled Operations (NEO) is 
essential to realize the vision of a scaleable network-centric 
automated NAS model.
    Innovation comes from setting standards and encouraging 
entrepreneurs to invest in the realization and commercialization of the 
vision. We saw this in the application of digital technology in 
telecommunications, the Internet and Hi-Definition broadcasting. Many 
innovations come from small companies and start-ups with new approaches 
and ideas. In aviation we need to foster similar innovation by 
encouraging new entrants while accommodating an evolutionary pathway 
for legacy stakeholders in their move to modernize.
    Mr. Chairman, this concludes my testimony. I would be happy to 
answer any questions the Committee may have.

    Senator Burns. Thank you very much for your testimony.
    We have Mr. Jack Pelton here now, Chief Executive Officer, 
Cessna Aircraft Company, from Sedgwick County, Kansas.

             STATEMENT OF JACK J. PELTON, CHAIRMAN,

          GENERAL AVIATION MANUFACTURERS ASSOCIATION;

   CHAIRMAN, PRESIDENT, AND CHIEF EXECUTIVE OFFICER, CESSNA 
                        AIRCRAFT COMPANY

    Mr. Pelton. Chairman Burns, Senator Lautenberg, and Members 
of the Subcommittee, my name is Jack Pelton. I join you this 
morning in a dual capacity of Chairman of the General Aviation 
Manufacturers Association, or GAMA, and as Chairman, President, 
and Chief Executive Officer of Cessna Aircraft Company. Thank 
you for the invitation to join you and offer testimony on the 
development of what has become known to be called very light 
jets, or VLJs.
    Mr. Chairman, I would like to ask that my full statement be 
included in the--for the record.
    Senator Burns. Without objection, it sure will. And all of 
your--all of the statements will be included.
    Mr. Pelton. Since its founding in 1927, Cessna has 
introduced, participated in, or witnessed firsthand every major 
innovation in aviation. From radials to pistons to jets, Cessna 
built half of the airplanes in the world today and trained the 
majority of the world's pilots. It's with that background that 
I join you today to address the development of VLJs.
    The introduction of ``very light jets,'' a term that was 
defined by the industry as jet-powered aircraft with a maximum 
takeoff weight of 10,000 pounds or less, is merely another step 
in the evolutionary cycle of general aviation, or GA, aircraft 
development. Although the significance of the arrival of the 
VLJs will be best assessed after several years of experience, 
this is an exciting time for the general aviation community.
    I believe that soon the traveling public will also realize 
how VLJs can fulfill an unmet need for air transportation.
    Mr. Chairman, in recent months, some have expressed concern 
regarding the effects of the introduction of VLJs on the 
National Airspace System. Although I do see VLJs as an exciting 
expansion of the GA market, there are at least five specific 
reasons why I strongly disagree with some of the opinions that 
I've heard.
    First, very light jets will not darken the skies. Based on 
the forecasts made in the development of Cessna's own entry 
into this sector, the Citation Mustang, fears of traffic 
congestion are unfounded and unwarranted. Cessna's been 
manufacturing jets since 1971. Today, our Citation fleet is the 
largest business jet fleet in the world, numbering around 4,500 
aircraft, and it took us 35 years to put those jets into our 
customers' hands. Based on my experience, I believe general 
aviation will see steady and linear, not exponential, growth. 
Cessna believes that the VLJ market will develop like every 
other turbine-powered GA aircraft, in an evolutionary, rather 
than revolutionary, way.
    Second, VLJs will not place an undue burden on the Nation's 
air traffic control system. Concerns about integrating VLJ 
operation with other aircraft flying in the National Airspace 
System have been greatly exaggerated. Currently, the air 
traffic control system accommodates a variety of airplane 
types, each with a different speed and performance capability. 
VLJs will operate within the speed envelop of a broad spectrum 
of aircraft that are operated today by the airline fleet, and 
will be able to coexist with these aircraft.
    Third, VLJs will not increase congestion at the Nation's 
busiest airports. At the Operational Evolution Plan, 35 
airports comprised mainly of airline hubs and where a majority 
of the FAA expenditures are made, GA currently accounts for 
less than 6 percent of the total operations. We have no reason 
to believe that GA's usage of these airports will change with 
the introduction of VLJs. In fact, VLJ operators have a 
powerful incentive to avoid the traffic congestion and delays 
found at these airline-dominated airports. In short, Cessna 
sees the introduction of VLJs at a rate that will permit them 
to be transparently and smoothly absorbed into the system.
    Fourth, VLJ pilots will be trained to the same standards as 
commercial pilots. To obtain a type rating in a very light jet, 
a pilot will have to go through FAA-approved training, the same 
that's mandated for today's air-carrier and corporate pilots. 
Manufacturers have selected their training partners, United 
Airlines and FlightSafety, both worldwide leaders in pilot 
training recognized for their leadership and safety. These 
pilots, who will operate in the very light jet operations or 
on-demand charter, will also meet the training, testing, and 
currency standards specified and overseen by the FAA. These 
type-rating requirements and proficiency standards have been 
established to ensure competent pilots operate airplanes in 
private and commercial operations.
    Fifth, VLJ operations will pay taxes into the Airport and 
Airways Trust Fund in the same manner as all other aircraft 
operators, based on the operation.
    Mr. Chairman, the introduction of very light jets into the 
market is an exciting time for general aviation. The General 
Aviation Manufacturers Association, Cessna, and all of our 
industry partners look forward to working with you and your 
colleagues to ensure seamless integration of the VLJ into the 
United States aircraft fleet.
    Thank you, again, for the opportunity to testify before you 
this morning, and I look forward to your questions.
    [The prepared statement of Mr. Pelton follows:]

   Prepared Statement of Jack J. Pelton, Chairman, General Aviation 
  Manufacturers Association; Chairman, President, and Chief Executive 
                    Officer, Cessna Aircraft Company
    Chairman Burns, Senator Rockefeller and Members of the 
Subcommittee, my name is Jack Pelton and I join you this morning in the 
dual capacity of Chairman of the General Aviation Manufacturers 
Association (GAMA) and as Chairman, President and Chief Executive 
Officer of Cessna Aircraft Company. I am pleased to appear before you 
to discuss the unique and growing contribution general aviation (GA) 
makes to our Nation's economy and air transportation system. At large, 
medium and small sized airports across the country, general aviation 
operations supplement and complement the air transportation services 
provided by our partners in air transportation--scheduled airlines. 
Without general aviation services, thousands of communities, especially 
those in remote or rural areas, could not realize the economic benefits 
of air transportation.
General Aviation Development
    Not many years ago, the existence of general aviation was in doubt. 
If the value of GA had not been recognized, its role in the current air 
transportation system would have been significantly diminished. If we 
had failed to act then, the traveling public would be suffering now. 
This Subcommittee played a significant role in resolving those threats, 
so I would like to take this opportunity to update the Subcommittee on 
the many positive outcomes of your past actions. I believe they also 
provide a conceptual framework for resolving some of the issues we are 
discussing today.
    In 1994, recognizing the unique and essential contribution GA makes 
to the Nation's air transportation system, Congress enacted the General 
Aviation Revitalization Act (GARA). GARA instituted a Federal, 18-year 
statute of repose for general aviation products, removing an impediment 
that had caused some to conclude that the GA industry was ``dead.'' 
Subsequent to GARA's enactment, the number of frivolous lawsuits filed 
against GA manufacturers dropped dramatically.
    During the GARA debates, the General Aviation Manufacturers 
Association (GAMA) predicted that if the legislation was enacted, 
former GA airplane manufacturers would return to the market, new 
manufactures would emerge and advanced GA products would once again be 
widely available. The public, especially small communities, would 
benefit from an improved margin of safety, enhanced economic growth and 
a more effective air transportation system. I am pleased to note that 
the public benefits predicted by GAMA in 1994 have more than 
materialized and there are still more to come.
    The growing demand for general aviation airplanes reflects the 
increased need for air transportation, which is driven by a growing 
economy. No single segment of aviation can fulfill this country's 
transportation needs. Major airlines serve only 150 U.S. airports, 
regional airlines serve an additional 300, while general aviation is 
still the only means of air transportation at more than 5,000 public-
use airports and thousands of private-use airports. It's easy to 
understand why the economic benefits from general aviation are 
significant.
    A recent economic study by some of the country's most knowledgeable 
transportation economists quantified the economic value of general 
aviation to the national economy, as well as each state. GA contributes 
more than $150 billion to U.S. economic output, and directly or 
indirectly, employs more than 1,265,000 people whose collective 
earnings exceed $53 billion. I have attached a state-by-state summary 
of this analysis to my statement and the entire study is available on 
GAMA's website (www.gama.aero).
General Aviation Safety
    While economic benefits are very important, our highest priority is 
improving GA's margin of safety. Recent FAA statistics indicate that, 
at the current rate, the number of fatal general aviation accidents 
will hit an all-time low in 2006.
    Safety improvements have been enabled by four main factors:

  <bullet> Development of innovative designs and production processes 
        for airplanes, engines, avionics and other components, thereby 
        enhancing the reliability, performance and efficiency of GA 
        operations.

  <bullet> Development of affordable avionics with advanced 
        capabilities, sized for installation in even the smallest GA 
        airplane, thereby allowing every type of GA airplane to fully 
        benefit from available communication, navigation and 
        surveillance services, and to interface seamlessly into the air 
        traffic control system.

  <bullet> Introduction of integrated, digital cockpits and electronic 
        displays, thereby improving a pilot's situational awareness 
        while reducing human error.

  <bullet> Introduction of more effective and efficient training 
        curricula for both pilots and maintenance technicians, and 
        growing use of advanced-technology training simulators and 
        devices for pilot training.

    The integrated, digital cockpits available on GA airplanes today 
rival any equipment installed on commercial airliners. GA manufacturers 
and pilots recognized the safety benefits of this technology so quickly 
that ``all-glass'' cockpits are now standard equipment on almost all 
new GA airplanes capable of flying under instrument flight rules (IFR).
Very Light Jets
    The introduction of very light jets (VLJs), a term defined by 
industry as jet powered aircraft with a maximum take off weight of 
10,000 pounds or less, is merely another step in the evolutionary cycle 
of GA aircraft development. Although the significance of the arrival of 
VLJs will be best assessed after several years of experience, this is 
an exciting time for the general aviation community. I believe that 
soon, the traveling public will also fully realize how VLJs can fulfill 
an unmet need for air transportation.
    As airplanes enter service, GAMA will continue to be a strong 
advocate for GA safety risk management. GAMA will work closely with 
current and future manufacturers, operators, training providers, 
aviation advocacy groups, and appropriate representatives from the FAA, 
including the Air Traffic Organization, to ensure the safe operation of 
very light jets. Our purpose will be to help collect, assimilate and 
distribute any reported incidents or other occurrences related to the 
continued airworthiness and operation of VLJs. In line with FAA's work 
on safety risk management to proactively manage the safe operation of 
all airplanes in the NAS, the data available about very light jet 
operations will exceed that of any previous airplane type. This will 
help us ensure safe operation, and enable us to make real time 
modifications to training programs and target operator oversight from 
the FAA.
The Future and Impact of Very Light Jets
    In recent months some have expressed concern regarding the effects 
of the introduction of VLJs on the National Airspace System. Although I 
do see VLJs as an exciting expansion of the GA market, there are a 
number of reasons why I strongly disagree with some of the opinions I 
have heard.
VLJs Will Not ``Darken the Skies''
    Based on the forecasts made in the development of Cessna's own 
entry into this sector, the Citation Mustang, fears of traffic 
congestion are unfounded and unwarranted.
    Cessna has been manufacturing jets since 1971. Today, our Citation 
fleet is the largest business-jet fleet in the world, numbering around 
4,500 aircraft and it took us 35 years to put those jets into our 
customers' hands. Based on this experience, I believe general aviation 
will see steady and linear, not exponential, growth.
    Cessna believes that the VLJ market will develop like that of every 
other turbine powered GA aircraft, in an evolutionary, rather than 
revolutionary way.
VLJs Will Not Place an Undue Burden on the Air Traffic Control System
    VLJ operations will not place an undue burden on the air traffic 
control system today or in the future. In addition, VLJ operations will 
not increase operational delays for other operators.
    Concerns about integrating VLJ operations with other aircraft 
flying in the National Airspace System (NAS) have been greatly 
exaggerated. Currently, the air traffic control system accommodates a 
variety of airplane types, each with different speed and performance 
capabilities. VLJs, which operate within the speed envelopes of the 
broad spectrum of aircraft operated by the airline fleet, will be able 
to coexist with these aircraft.
    FAA Administrator Marion Blakey apparently agrees. In a July 28, 
2006 feature on very light jets, following the provisional 
certification of the Eclipse 500, the Administrator told NBC Nightly 
News, ``I think the people who are anticipating congestion problems way 
up at high altitudes are probably anticipating a problem that we don't 
necessarily expect to have.''
VLJs Will Not Increase Congestion at Operational Evolution Plan 
        Airports
    At the Operational Evolution Plan (OEP) 35 airports, comprised 
mainly of airline hubs and where a majority of FAA expenditures are 
made, GA currently accounts for less than 6 percent of total 
operations. We have no reason to believe that GA's usage of these 
airports will change with the introduction of the VLJ. In fact, VLJ 
operators have a powerful incentive to avoid the traffic congestion and 
delays found at these airports, and they will have several ways to do 
so. The flexible nature of a GA operation, and the operational 
characteristics of a VLJ, make it relatively easy for operators to 
avoid congestion and delay.
    VLJs can fly fuel-efficient profiles using altitudes both above and 
below those typically used by airlines. Unlike larger aircraft, the 
operating costs for VLJs will not significantly increase when the 
aircraft is flown at less-than-optimum altitudes. Also, unlike 
scheduled operations, the departure time for a VLJ operation can be 
easily adjusted to accommodate current congestion in the ATC system, or 
current weather conditions.
VLJ Operators Will Pay Their Fair Share
    VLJ operators will pay into the Airport and Airways Trust Fund 
(AATF) in the same way as all other aircraft operators, based on the 
operation.
VLJs Will Provide Service to Many Underutilized and Neglected Markets
    Due to their unique operating characteristics, VLJs will be able to 
provide commercial service to communities currently ignored by the 
airlines. Today, most GA operations occur at airports with excess 
capacity. It is preposterous to think that VLJ operators will not 
follow suit, as doing so would alleviate the primary benefit of owning 
and operating your own personal airplane: time savings and flexibility.
VLJ Pilots Will be Trained to Standards Applicable to Commercial Pilots
    To obtain a type rating in a very light jet, a pilot will have to 
go through FAA approved training, the same as that mandated for today's 
air carrier and corporate pilots. Manufacturers have selected their 
training providers--United Airlines and FlightSafety International--
both worldwide leaders in pilot training, recognized for their 
leadership in safety. Those pilots who will operate a very light jet 
for commercial purposes, such as an air taxi operation or on-demand 
charter, will also meet the training, testing, and currency standards 
specified and overseen by the FAA's principal operations inspectors and 
at the discretion of the FAA Administrator. These type rating 
requirements and proficiency standards have been established to ensure 
competent pilots operate airplanes in both private and commercial 
operations.
The Delivery of VLJs to Market Will Take Place Over Time
    There is simply no large parking lot full of VLJs poised to soar 
into America's skies in the coming days and weeks. In fact, as we 
speak, there are less than two dozen VLJs flying (including 
prototypes). Regardless of consumer demand for these aircraft, it will 
take significant time for industry to produce, flight test and deliver 
aircraft to customers.
Summary
    The development and introduction of VLJs should be lauded as a 
significant technical achievement by U.S. manufacturers. GA makes a 
unique contribution to the air transportation system and generates 
significant benefits to the U.S. economy. The introduction of new 
technology, such as the VLJ, further expands and enhances GA's 
contribution to the air transportation system.
    GA operators and manufacturers continue to give safety the highest 
priority. Advanced technologies are an essential precursor to 
innovative airplane designs. Innovative designs enhance the margin of 
safety and efficiency of GA operations.
    VLJs will operate under the same pilot training standards required 
for all U.S. jet pilots.
    Based on the most likely estimate of VLJs to be delivered in the 
next 10 years, for the foreseeable future VLJ operations will not 
contribute to air traffic delays suffered by airlines. Most GA airplane 
operators, including those that will operate VLJs, will continue to 
avoid congested airspace and airports in order to make their movements 
as quick and efficient as possible.
    The VLJ's impact on both the National Airspace System and the GA 
market has been greatly exaggerated on a number of fronts. The VLJ will 
develop in a similar fashion to other general aviation aircraft, as a 
tide, rather than tidal wave.
    VLJ operators will pay their fair share for use of the NAS through 
a combination of ticket and fuel taxes.
                                 ______
                                 
                               Appendix B
Summary of Results

        Table B1--State Impacts--Total value and per capita, 2005

                ($                                   ($
  State     millions)    Per Capita    State     millions)    Per Capita

Alabama         $1,703         $370  Montana           $260         $259
Alaska            $400         $571  Nebraska          $721         $409
Arizona         $2,766         $529  Nevada            $962         $465
Arkansas        $1,033         $376  New               $639         $499
                                      Hampshir
                                      e
Californi      $18,202         $529  New             $4,351         $518
 a                                    Jersey
Colorado        $2,141         $479  New               $761         $378
                                      Mexico
Connectic       $2,409         $726  New York        $9,267         $508
 ut
Delaware          $577         $722  North           $4,140         $503
                                      Carolina
District          $483         $914  North             $218         $322
 of                                   Dakota
 Columbia
Florida         $7,520         $462  Ohio            $5,462         $478
Georgia         $8,751       $1,040  Oklahoma        $1,215         $348
Hawaii            $412         $307  Oregon          $1,832         $507
Idaho             $581         $393  Pennsylva       $6,009         $489
                                      nia
Illinois        $6,040         $492  Rhode             $465         $460
                                      Island
Indiana         $3,352         $539  South           $1,606         $398
                                      Carolina
Iowa            $1,413         $481  South             $303         $374
                                      Dakota
Kansas          $7,072       $2,561  Tennessee       $2,571         $431
Kentucky        $1,746         $426  Texas          $11,237         $523
Louisiana       $2,059         $454  Utah              $912         $378
Maine             $521         $405  Vermont           $274         $430
Maryland        $2,085         $381  Virginia        $3,333         $455
Massachus       $4,046         $641  Washingto       $3,186         $509
 etts                                 n
Michigan        $4,138         $424  West              $616         $333
                                      Virginia
Minnesota       $2,976         $595  Wisconsin       $3,523         $643
Mississip         $860         $296  Wyoming           $353         $621
 pi
Missouri        $2,498         $437



    Senator Burns. Thank you, Mr. Pelton. We appreciate that 
very much.
    Mr. Andersson?

           STATEMENT OF MATTHEW G. ANDERSSON, SENIOR

          AVIATION CONSULTANT, AEROSPACE, DEFENSE, AND

            TRANSPORTATION, CRA INTERNATIONAL, INC.

    Mr. Andersson. Members of the Senate Aviation Subcommittee, 
my comments here----
    Senator Burns. Am I pronouncing that right, or do you have 
another pronunciation when you put to ``s's'' in it?
    Mr. Andersson. No, it's just that that's the Swedish 
variety.
    Senator Burns. OK.
    [Laughter.]
    Senator Burns. You Svedes. OK.
    [Laughter.]
    Senator Burns. Ja, sure.
    [Laughter.]
    Mr. Andersson. Members of the Senate Aviation Subcommittee, 
my comments here, as well as my purpose today in answering your 
questions, are necessarily limited to VLJ economic, business, 
and policy issues and their implications for the NAS. Of 
course, I welcome any questions you may have on broader civil 
aviation development, and will endeavor to respond to the best 
of my abilities.
    My background, briefly, includes more than 25 years of 
private and commercial aviation management experience, 
including over 10,000 hours as an airline transport pilot. I 
was the founder and CEO of Indigo Airlines, an American Express 
Corporation-backed venture, and currently serve as a senior 
aviation consultant to CRA International, or Charles River 
Associates, a leading provider of economic, financial, 
business, legal, and regulatory consulting, recently ranked by 
Forbes as one of the top 100 fastest-growing service firms. 
Founded and in business continuously since 1965, with over a 
thousand specialists around the globe, serving Fortune 500, 
government, and new businesses across more than 12 sectors, 
including aerospace, defense, and transportation, our firm is 
known worldwide for its innovations and expertise in travel 
analysis and forecasting.
    My objectives here today in this particular forum are not 
to provide an oral defense, per se, of the economic impact 
study, but to help explain some of the features of the results, 
and to translate these into real-world examples, including 
their merit as indicators of industrial market development.
    As for the report's accuracy, only one thing is certain: it 
will be wrong. All forecasts are. But getting it right also 
means what ``right'' means. This can range from the right 
numbers to the right market and industry direction to the right 
trend, the right reality.
    For some descriptive comparison of previously unexpected 
developments in air travel, consider, among others, the growth 
of shared or so-called fractional jet services. In 1985, this 
industry didn't exist; today, one company alone is considered a 
top-ten airline, with a fleet that rivals the world's largest. 
In 2005, the private jet industry was the recipient of over $10 
billion in new business; the consumers diverted from 
traditional airline service. Why? This is how consumers, your 
constituents, increasingly want to travel regionally.
    Allow me to preface the remarks concerning NAS management 
with an underlying position. The current debate or contest 
between the airline industry and general aviation and the 
private-jet sector is unproductive and unnecessary. Far from a 
nuisance, the VLJ industry will represent a family of worker 
bees pollinating their environment and experts at making honey. 
And traditional airlines will continue to work toward improving 
their products and services, and mass public transportation 
will continue to be a central critical backbone of our Nation's 
economy. Both air networks will share a need for increasingly 
intelligent ATC capabilities and financing, such that these 
advances in benefits can be operationalized.
    Airlines and GA need not fight an antagonistic battle. 
Working together on strengthening our aviation industry, in all 
its forms, along with a--along with driving forward 
breakthroughs in technology, material science, propulsion, and 
processing, will only best serve the American public, American 
business, and America's future.
    NAS ramifications are, in my view, straightforward and 
clear. There's no shortage of airspace. VLJs will not constrain 
airspace. Business jets will not compromise airline operations. 
VLJs will productivize dormant aviation assets. Intelligent ATC 
will revolutionalize density assumptions. NGATS must be funded, 
regardless of the slope of UAV and VLJ growth curves, because 
NGATS is really a recapitalization issue.
    As for new aircraft in the NAS, the topic of today's 
hearing, it is helpful to consider that long before the concept 
of an airline was introduced, aviation was born from individual 
aspiration, with individuals operating small private aircraft 
for personal and business purposes. And right alongside the 
introduction of the very first passenger jets were also the 
very first business jets, including the Sabre, JetStar, 
Learjet, Falcon, Gulfstream, Cessna, and now the VLJ, a natural 
development from a long series of built-to-purpose aircraft.
    Relatedly, it is important to maintain context over 
relative representation of airline and GA aircraft in the NAS. 
Airline capacity, operational intensity, and inventory levels 
vary based on several competitive issues and can often 
represent significant excess levels over demand. A generally 
held view is that airline capacity is still excessive, some 
believe as much as 30 percent. Moreover, our deregulation 
regime supports nearly constant entry of new carriers, and 
``Open Skies'' will invite yet more capacity. GA business, jet 
or air-taxi flight operations, on the other hand, do not 
compete, per se, for market share through blind inventory 
creation. They fulfill actual demand in regional catchment 
areas; indeed, they are demand-pulled, rather than supply 
pushed, and may represent an inherent efficient equilibrium. 
Further, VLJ production levels and air taxi operations, among 
others, will generally reflect actual consumer demand. Aircraft 
and seat inventory will not spoil on a daily basis, like 
traditional airline inventory. VLJs and VLJ services will be 
mass-customized rather than mass-supplied.
    Implied economic impact, jobs, and earnings from our recent 
study are, indeed, meaningful. It indicates to me that we could 
witness not merely a new segment of civil aviation, but a whole 
new industry, one based on the powerful effects of decreasing 
product and service cost and its ability to make individual jet 
transportation available to the broader public. Moreover, the 
indications of work productivity achievable from such travel 
tools and services are serious, millions of precious travel 
hours worth billions of dollars saved every year, ones that can 
be reinvested back in our economy.
    Please keep in mind, however, that these initial 
estimations of future production impact are, in the context of 
other current forms of transportation, are still modest. 
Indeed, it is my view that the study is conservative in its 
conclusions, but literal in its implications: that the 
democratization of personal air travel may be upon us; and, if 
so, the future of urban and short-distance air travel will be 
very much different from the one we know today.
    Regardless of your acceptance or rejection of this view, 
one thing is certain, individuals will continue to gain 
increasing control over their air mobility, as we have 
witnessed over communication and computing tools. We can argue 
over forecasts. What we cannot deny, however, is inexorable 
fact, technology, in all its forms, gets smaller, better, 
cheaper, faster, smarter, and more broadly diffused across the 
marketplace.
    Allow me to conclude with what I believe to be a key 
message. The topic under our consideration is not just 
important, it is of vital national significance. Air travel is 
a young industry. Only 50 years ago, the first jet aircraft was 
introduced into commercial service. The aviation industry is 
capable of developing in ways just as dramatic as it did when 
we went from the Wright Flyer to the first passenger jet. More 
so, in fact. It will be led by U.S. aviation entrepreneurship 
while advancing and building on aviation know-how.
    No one rivals the U.S. in aviation. India may have call 
centers; China, low-tech manufacturing; the Middle East, oil; 
and Japan, its auto industry. But the U.S. owns aerospace. It 
is critical that all of us do not unintentionally neglect or 
short sell U.S. aviation dominance expertise with the future of 
this industry.
    I urge you to join forces with the Nation's entrepreneurs 
and professionals, some of whom are here today, to make certain 
that we succeed. As American technology pioneer Alan Kay said, 
``The best way to predict the future is to invent it.'' This 
Nation's aviation future is too important and promising to 
leave to chance.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Andersson follows:]

Prepared Statement of Matthew G. Andersson, Senior Aviation Consultant, 
    Aerospace, Defense, and Transportation, CRA International, Inc.
Introduction
    Members of the Senate Aviation Subcommittee, I appreciate this 
opportunity and am pleased to testify this morning on a very important 
topic.
    My comments here, as well as my purpose today in answering your 
questions are necessarily limited to VLJ economic, business and policy 
issues and their implications for the NAS, ATC modernization and FAA 
reauthorization. I am an exclusive senior consultant to CRA, not an 
employee; some views may be strictly my own professional ones.
    Of course I welcome any inquiries you may have on broader civil 
aviation development, and will endeavor to respond to the best of my 
abilities.
Background
    My relevant background briefly, includes more than 25 years of 
private and commercial aviation management experience, including over 
10,000 hours as an Airline Transport Pilot. I come from an aviation 
family. My father, Lee, was a Navy veteran and Eastern Airlines 
Captain. My mother, Bobbi, was a Colonial Airlines DC-3 ``stewardess.'' 
I leaned to fly at age 11 in a Piper Cub on a grass field in 
Connecticut, and graduated from Embry Riddle Aeronautical University at 
age 19. I received a B.A. degree and studied economics with W.W. Rostow 
at the Johnson School of Public Policy at the University of Texas at 
Austin and received an MBA in economics from the University of Chicago. 
I was the Founder and CEO of Indigo Airlines, an American Express 
Corporation backed venture and currently serve as a Senior Aviation 
Consultant to CRA International (Charles River Associates) a leading 
provider of economic, financial, business, legal and regulatory 
consulting, recently ranked by Forbes among the top 100 fastest growing 
service firms, founded and in business continuously since 1965 with 
over 1,000 specialists around the globe serving Fortune 500, government 
and new businesses across more than 12 sectors including aerospace, 
defense and transportation. Our firm is comprised primarily of Ph.D. 
level economists, engineers and other specialists and is known 
worldwide for its innovations and expertise in travel analysis and 
forecasting.
Overview of VLJ EI Analysis
    The VLJ economic impact study that you have been supplied with and 
that our firm produced was commissioned by Eclipse Aviation and is part 
of a growing body of formal analysis directed at producing a sharper 
understanding of this important new transportation initiative.
    My objectives here today in this particular forum are not to 
provide an oral defense per se of the study but to help explain some of 
the features of the results, and to translate these into real world 
examples, including their merit as indicators of industrial and market 
development, such that the Nation's aviation infrastructure is 
contemplated in light of demands on system modernization and processing 
capacity, consumer/constituent benefits--and of course, ATC funding.
    The EI study concludes that a range of VLJ production is reasonable 
and provides from a base-case and higher production scenario, likely 
economic impacts organized as user, direct, indirect and induced. There 
is not a probability weighting across the scenarios but a sensitivity 
to variance addressed through production variation. Moreover, it is 
important to understand that our focus was on EI, given certain 
assumptions of VLJ production. We are currently conducting a much more 
formalized and comprehensive unit forecasting analysis.
    As for the reports accuracy, only one thing is certain: it will be 
wrong. All forecasts are. But getting it ``right'' also means what 
``right'' means. This can range from the right numbers, to the right 
market and industry direction, the right trend, to the right reality, 
the right view of the world. And for some descriptive comparison of 
previously unexpected developments in air travel, consider, among 
others, the growth of shared or so-called fractional jet services. In 
1985 this industry didn't exist. Today, one company alone is considered 
a ``top-ten'' airline with a fleet as large as the world's largest 
airline, and as an industry continues to attract record numbers of 
consumers. In 2005, the private jet industry was the recipient of over 
$10 Billion in new business that consumers diverted from traditional 
airline service. Why? This is how consumers--your constituents--
increasingly want to travel.
Competitive Airspace Considerations
    Allow me to preface some remarks concerning NAS management with an 
underlying position: the current debate (contest) between the airline 
industry and the general aviation/private jet sector is an ill-founded 
one; it is unproductive, distracting and unnecessary. Various sound 
bites including ``a blip is a blip;'' ``mosquito fleet'' or 
``Pterodactyl airlines'' are not helpful and needlessly antagonistic. 
Most importantly they are not accurate. Consider for example, the 
airline industry. Their position may not even be relevant to today's 
topic. Airlines are concerned right now especially, not so much with 
the future, but with survival. Airlines are subject to a legacy 
regulatory system that is central to their struggles. The ``Hill'' is 
merely another platform for cost divestiture in the absence of a 
comprehensive, supportive regulatory and policy regime. As for the 
notion of a ``mosquito fleet,'' I prefer a smart team of peregrine 
falcons, of fast swallows, or a VLJ family of ``worker bees,'' 
pollinating their environment and experts at making honey.
    Relatedly, the consternation over so-called user fees may be 
misplaced. The FAA broadly, is in my view a public good that will be 
publicly financed, with targeted private participation. User fees may 
serve as a proxy for private sector financing preconditions. Then 
again, they may not. And future infrastructure finance requirements 
likely in high excess of both funding levels and funding duration 
stemming from this limited component. And of course the source of 
funding is fungible and always the same: the consumer. Whether various 
income, sales, estate, transaction or ticket tax receipts; user fees 
passed through to the consumer; or private equity investing pension 
funds, the consumer pays. We can vary the descriptor but the subject 
remains unchanged. As for ``new aircraft in the NAS'' it may be helpful 
to consider that long before the concept of an airline was introduced, 
aviation was born from individual aspiration; of individuals operating 
small, private aircraft for personal and business purposes. And right 
alongside the introduction of the very first passenger jets were also 
the very first business jets; including the Sabre, Jetstar, Lear Jet, 
Falcon, Gulfstream (in civil and military use) and now the VLJ: a 
natural development from a long series of built-to-purpose aircraft.
UAVs in the NAS
    Concerning UAVs, I limit my response to the following issue: 
detection. UAVs must possess 4-Pi steradian or full spherical coverage 
to operate safely outside restricted airspace in the NAS. UAVs must 
posses a sensor capable of fulfilling the FAA's ``sense and avoid'' 
requirement and this must be applied across the full range of UAV 
types, from large winged loiter craft to small tactical UAVs that may 
require a ultra-wide-band (UWB) capability for high range-resolution 
across microstrip patch-array antennas directed at object avoidance 
(power lines, telephone poles, buildings, towers, trees, etc). I direct 
your attention to Mr. William Cotton, President, Flight Safety 
Technologies, Inc. for further elaboration and possible expert 
testimony on this subject.
Position on New Aircraft Vis-a-Vis the U.S. Aviation System
    NAS ramifications are in my view, straight forward and clear:

        1. There is no shortage of airspace.

        2. VLJs will not constrain airspace.

        3. Personal jets will not compromise airline operations.

        4. VLJs will productivize dormant aviation assets.

        5. Intelligent ATC will revolutionize density assumptions.

        6. NGATS must be funded regardless of the slope of UAV and VLJ 
        growth curves (NGATS is really a recap issue).

    Indeed, not unlike automotive development, there are various sports 
cars, family cars, SUVs, motorcycles, campers, LTL and LH trucks and 
many other forms of surface vehicles and multimodal interaction that 
all rather peacefully coexist, if not mutually reinforce each other 
(and one could compare telecommunication networks similarly, from 
copper, fiber, ISDN, cable, satellite, PCS, cellular, radio, VoIP) as 
airspace will becomes ``digitized.''
    Finally, implied EI, jobs and earnings from our recent study are 
indeed meaningful. It indicates to me that we could witness not merely 
a new segment of civil aviation, but a whole new industry, one based on 
the powerful effects of decreasing product and service cost and its 
ability to make individual jet transportation available to the broader 
public. Moreover, the indications of work productivity achievable from 
such travel tools and services are serious: millions of precious travel 
hours saved every year, ones that can be ``reinvested'' back in our 
economy.
    Please keep in mind, however, that these initial estimations of 
future production and impact are, in the context of other current forms 
of transportation, still modest. Indeed, it is my view that the study 
is conservative in its conclusions but liberal in its implications: 
that the ``democratization'' of personal air travel may be upon us, and 
if so, the future of urban and short-distance air travel will be very 
much different than the one we know today.
    Regardless of your acceptance or rejection of this view, one thing 
is certain: individuals will continue to gain increasing control over 
their air mobility, as we have witnessed over communication and 
computing tools. As Steve Forbes insightfully stated over a decade ago, 
``Small jets are starting to do to the airline industry what PCs did to 
mainframe computing; minimills did to steel; cellular is doing to 
telephony; mutual funds are starting to do to centrally managed 
corporate and government pension plans and eventually will do to Social 
Security; and what coming minigenerators will do to massive power 
plants--give customers more service, more flexibility, more control at 
less cost, as well as generate new products and services. Its about 
power moving away from the machine-age center toward individuals of the 
microchip era.''
    Moreover, traditional airlines will continue to work toward 
improving their products and services and mass public transportation 
will continue to be a central, critical backbone of our Nation's 
economy. Both air networks will share a need for increasingly 
``intelligent'' ATC capabilities (and financing) such that these 
advances and benefits can be operationalized. Airlines and GA need not 
fight an antagonistic battle. Working together on strengthening our 
aviation industry--in all its forms--along with driving forward 
breakthroughs in technology, material science, propulsion and 
processing, will only best serve the American public, American 
business, and American government.
Conclusion
    Allow me to conclude with what I believe to be a key message: the 
topic under our consideration is not just important, it is of vital 
National significance.
    Air travel is a young industry. Only 50 years ago the first jet 
aircraft was introduced into commercial service. The impact on 
communication, economic development and business productivity has been 
profound. But perhaps we have lost our perspective as well as our 
ambition: in all the confusion and turmoil of aviation dramas we may 
easily lose sight of the real goal; it isn't just commercial survival, 
but continuous modernization, fundamental scientific advancement and 
technical and service progress. The aviation industry is capable of 
developing in ways just as dramatic as it did when we went from the 
Wright Flyer to the first passenger jet. More so, in fact. It will be 
lead by U.S. aviation entrepreneurship while advancing and building on 
U.S. aviation know-how.
    But rather than fixating on what one airline's quarterly financial 
results were, we should ask first where America's future is; what the 
next generation of flight will look like, and what it will take to get 
there. Some of that future is testifying today. In addition to VLJs and 
personal air mobility services such as air taxi, we should be engaged 
in a flurry of inventive activity that brings us new, quiet supersonic 
aircraft, new blended wing designs, new forms of propulsion and 
material science, entirely new ways of processing a flight from take-
off to touch-down, and especially, new kinds of thinking.
    The airline industry is capable of developing in ways just as 
dramatic as it did when we went from the Wright Flyer to the first 
passenger jet. More so, in fact. But first we're going to have to get 
our economics right. And that also means crafting a U.S. national 
airline policy.
    Most observers often forget just how big and how important the 
overall U.S. market is to the rest of the world. America's GDP is over 
$11 Trillion; Japan is a very distant second of $4.5 Trillion while 
Germany and France around $2T each. The GDP of California alone is 
larger than Spain, Italy and even Russia; over twice the size of 
Australian GDP and together with several other states including Texas, 
larger than all of China. If the U.S. grew 10 percent in 1 year it 
would produce another ``Canada.'' America's aviation markets are no 
less dramatic. More passengers fly more often on more aircraft to more 
places than in any other country. Our aerospace, defense, commercial 
and space programs lead the world. No one rivals the U.S. in aviation. 
India may have call centers, China low tech manufacturing, the Middle 
East oil and Japan its auto industry, but the U.S. owns aerospace.
    It is critical that all of us do not unintentionally neglect or 
short sell, U.S. aviation dominance, U.S. aviation expertise or the 
potential and future of the U.S. aviation industry.
    America's aviation system can't meet all of its challenges alone. 
Industry can't carry all the load. But neither can government. Until we 
raise aviation's modernization requirements to a national policy level 
of importance, can we expect the private sector and government to be 
able to join forces coherently and reliably around a comprehensive 
modernization objective, and then actually realize it.
    The late President Ronald Reagan said that everyone American is a 
shareholder in government; so for my \1/300\ Millionth equity share, I 
urge you to join forces with the Nation's entrepreneurs and aviation 
professionals, some of whom are here today, to make certain, that we 
succeed. As American technology pioneer Alan Kay said, ``The best way 
to predict the future, is to invent it.'' Captain Picard might say 
``Make it so.'' Nike would say, ``Just do it.''
    I say, this Nation's aviation future is too important and promising 
to leave to chance.
    Thank you and I look forward to your questions.

    Senator Burns. Thank you very much.
    I was interested in your assumption that--the important 
part or your testimony said, ``No matter what we do, we'll 
probably be wrong.'' I can remember sitting at this dais 
whenever we did the telecom bill in 1996, when we tried to 
predict the use of cell phones by the year 2000.
    [Laughter.]
    Senator Burns. How far could we be wrong? And I will tell 
you, I'm not a very good forecaster, because the first cell 
phone that I looked at, I said, ``Who in the world would ever 
own one of those? We still have pay phones, don't we?'' And----
    [Laughter.]
    Senator Burns.--I think I said the same dumb thing about 
facsimile machines, also.
    [Laughter.]
    Senator Burns. But, nonetheless, I appreciate your 
testimony.
    Mr. Raburn, your testimony, you state that the most 
promising market for the Eclipse 500 is the new air taxi 
industry. In fact, the largest percentage of your orders will 
be for those designed for that market. Some are skeptical of 
that growth. That already is an existing market. Why are you 
confident that the air taxi market will continue to grow with 
the introduction of the lighter jets?
    Mr. Raburn. Well, just to follow onto your comments, 
Senator, I've been involved in introductions of lots of new 
technology, including opening one of the very first computer 
stores in the Nation over 30 years ago, to being the 18th 
employee of Microsoft, when we introduced all kinds of new 
technology, and all I can tell you is, the forecasters are 
always wrong. The skeptics are always wrong. The numbers are 
always bigger when you actually solve a problem. And it's very 
simple, when you look at the air tax model, the ``per-seat, on-
demand'' model, they're solving a problem. And the problem is, 
people today need to take a lot of time to go between 
secondary, smaller communities, especially if you're not going 
from a small community to a large city and you're going between 
two small communities. I live in a State where that happens 
every single day, just as you do. And the simple fact of the 
matter is, there are a lot of people out there today who need a 
better form of transportation.
    So, I find it inconceivable that the air taxi model 
couldn't work. It does require two things. It requires a very 
different kind of airplane, an aircraft that is designed, from 
the beginning, to be not only efficient, from a cost 
standpoint--meaning fuel expense and maintenance--but also 
very, very reliable. In other words, it has to be like a 
Boeing. The second thing that it requires--and our friends at 
DayJet have done a marvelous job of this--is a whole new way of 
dispatching and managing these aircraft. And it's really 
technology out of the Internet world that's providing that--not 
just web access, but the theory behind network management--that 
will make this possible.
    So, there really are two technology changes that is 
enabling the air taxi. The fact that there is demand, I have no 
problem with, because I live in the pain every day, personally, 
of trying to get around this Nation if I don't have my own 
airplane to fly.
    Senator Burns. I would pose the same question to Mr. 
Pelton, because you're competitors, of course, in the market of 
building airplanes, and I would like to hear his view on that.
    Mr. Pelton. Well, certainly at Cessna we are hoping that 
the air taxi market does emerge, because it will be good for 
our industry. We built our Citation Mustang in our business 
plan around conventional wisdom, in the assumption that what we 
know today will hold true going forward, and that there would 
not be an emerging air taxi market. So, certainly our forecasts 
are significantly lower than some of the other competitors 
within the industry.
    When we look at the very light jet market in concept, we're 
addressing it with the existing known fractional providers, air 
charter providers, individual owner/operators, and corporations 
buying that airplane. And today, we've successfully sold into 
that market and have not been able to penetrate the air taxi 
market. So, I think there are probably two different ends of 
the spectrum, although we are optimistically hoping that the 
market does emerge, because it will be good for everybody in 
the industry.
    Senator Burns. The folks from DayJet, do they concur with 
that model?
    Mr. Iacobucci. Well, Chairman Burns, with all due respect 
to my industry partners here, I think that the VLJ is a part of 
the story. It is what we'd like to term a necessary, but not 
sufficient, condition for the creation of this new market. We 
view this--and the reason that there's so much skepticism 
around this is that aviation hasn't seen an incremental market, 
much in the same way that technology's seen--you cited cell 
phones; I could cite the Internet, even desktop computing--are 
all examples of markets that, when we started, everyone was 
very skeptical, because it didn't exist before.
    In the context of aviation, in particular, there hasn't 
been any transformative changes that have created new groups of 
users coming to the market. I believe--firmly believe--DayJet 
believes--that the short-haul transportation between hard-to-
get-to places not only serves a good common cause, but has, 
also, the potential for developing a true incremental market 
where people--not CEOs, COOs; I'm talking about servicepeople, 
engineers, auditors, lawyers, you name it--that today are 
forced to drive the 500-600 miles, yet are willing to 
investigate other options, but just don't have that option 
today. Going all the way up to a charter is far too cost 
prohibitive for a CEO to cut loose his senior salesperson to 
close a couple of deals or for a support person to fix 
something. Happens sometimes, but it's very unlikely.
    So, yes, I believe that there is a market. I believe that 
both gentlemen here actually demonstrate the two ends of the 
spectrum, in terms of the assessment of that market. And 
naturally, from our perspective, we're very confident the 
market exists, and that's what our business plan is built on.
    Senator Burns. Senator Lautenberg?
    Senator Lautenberg. Thanks, Mr. Chairman.
    The topic is one of great personal interest to me. I like 
aviation, and have spent a lot of time flying around; never at 
the helm, but always interested in what's going into 
technology. And over the years, I wrote legislation to insist 
on transponder C's in all areas, except the busiest. And I'm 
concerned about safety.
    I worry about one thing. By the way, Mr. Raburn and Mr. 
Pelton, I am also very excited about the prospects that this 
new--the new light jets bring. I really--I see it in so many 
ways. Every time I get in the car between here and the New York 
area and find out that the car is never fast enough to make a 
decent--trip decent, I look longingly at aviation. And then I 
get to the airport, and I wait an hour or a half-hour to take 
off, and the flight's 36 minutes, but the waits are an hour and 
a half. So, these are terrific opportunities.
    And I asked a question of the earlier panel about 
commercial viability. I view general aviation as something that 
companies own and people own and so forth, but I--of course, 
commercial viability is expressed in different manners. I worry 
about whether or not the infrastructure for dealing with this 
new phenomenon is in place. Because it can't be the same.
    Mr. Raburn, I think you said something about, ``We won't 
see parking--airports become parking lots for very light 
jets,'' but I think, in some cases, you will see that kind of a 
condition. And it's--and will a tower or some kind of a 
management system be required? In a way, I hope so.
    Let me ask you this question. The noise factor in light 
jets, relatively insignificant, a lot less than the typical 
stage-3 aircraft?
    Mr. Raburn. Senator, if I may, we just finished our FAA 
certification testing for noise levels on the Eclipse 500. It 
has been certified at a noise level that's 41 decibels lower 
than stage-4 requirements, which is not even yet promulgated. 
In other words, that's 51 decibels lower than the current 
stage-3 requirements.
    What that means, practically, is, this jet is quieter than 
any other jet flying today. It's quieter than any twin 
propeller flying today. And it's quieter than all but about a 
dozen single-engine piston airplanes flying today.
    So, this jet--and I think Mr. Sabatani made the comment 
that--because he's seen demos of the aircraft--that you really 
can't hear the aircraft as it takes off and goes by.
    Senator Lautenberg. Depends upon your hearing, huh?
    Mr. Raburn. Well, that's true, too. I've flown for so long, 
I don't have much hearing left, either.
    [Laughter.]
    Senator Lautenberg. No, but that's a kind of surprise, that 
you can't notice it. I--so, do you think these aircraft can 
help replace some of the stage-2s that still--that remain 
around?
    Mr. Raburn. I'm sure Mr. Pelton and I would just love to 
replace those airplanes.
    [Laughter.]
    Senator Burns. Well, Mr. Pelton, how do you feel about----
    Mr. Pelton. Well, I guess I'd like to answer it on behalf 
of GAMA, not Cessna, because GAMA's looking very hard at, How 
do we, as an industry, recognize that noise is an issue that 
upsets people at local airports and ends up causing problems 
with our future growth? So, we are very active in looking at, 
How do we move forward with getting into mandatory stage-3 
requirements? And, as Mr. Raburn mentioned, all of our new 
airplanes are certified well beyond stage 3 and well beyond 
proposed stage-4 requirements. So, we feel we're doing the 
right things, environmentally, long term with our new products, 
and we also support the necessary regulatory rules to move into 
the stage-3 environment.
    Senator Lautenberg. Do the VLJs, more than--are they 
single-engine or are they all twins or----
    Mr. Raburn. The current certified ones are twins. That's 
the Mustang----
    Mr. Pelton. Twins.
    Mr. Raburn.--and the Eclipse.
    Senator Lautenberg. Is it intended that there will be 
singles out----
    Mr. Raburn. There are announced single-engine airplanes, 
yes.
    Senator Lautenberg. There are now.
    Mr. Raburn. None of them are certified now.
    Senator Lautenberg. Well, I wish you luck. I think it would 
be a terrific addition to our convenience and economic well-
being. And, without dating myself too much, I watched the first 
unmanned jet bombs ever flown. I was a solder in Antwerp, 
Belgium, while the city was being hit by B-1s, B-2s. The B-1 
was the jet. But I also saw--I think the airplane was made by 
Fokker--a jet airplane followed by British Spitfires. And the 
distance that opened between them was incredible. It--and I 
thought--and I was young once, and----
    [Laughter.]
    Senator Burns. Aw.
    Senator Lautenberg. And I thought--yes.
    [Laughter.]
    Senator Lautenberg. Wiseguy. Don't talk. Look in the 
mirror.
    [Laughter.]
    Senator Lautenberg. Well, I--but what scared me, even as a 
20-year-old--``My God, what's--if these people have that kind 
of technology, where are--will we be if this war continues?'' 
And, fortunately, the fates had it that we changed the course 
of events and came out a stronger country for it all.
    Thanks very much. Thanks, Mr. Chairman.
    Senator Burns. Thank you, Senator Lautenberg.
    Well, I will tell you that I'm not as young as you think I 
am, because I can remember when the--when Continental flew the 
first 707 into Kansas City, old MKC, downtown Kansas City. And 
that was--that's been several years ago. And I went to work for 
Ozark Airlines, and we were still flying--at the time, we were 
flying--still flying DC-3s, but, I'll tell you what, they were 
modified, and they had the wheel covers, if you remember.
    [Laughter.]
    Senator Burns. We were the only airline that had wheel 
covers on a DC-3. But we were pretty modern.
    And tell me about the new powerplants. We are all concerned 
about fuel, fuel efficiency, cost of fuel, which is probably 
your biggest cost in operating air taxis, or whatever you're 
doing with aircraft. Tell me about the new powerplants. Can 
anybody bring me up to date on that? Mr. Andersson probably 
could, and Mr. Pelton, for sure. Can you----
    Mr. Pelton. It's----
    Senator Burns.--comment on those, please?
    Mr. Pelton. Yes. It's been--the engine manufacturers have 
done a remarkable job of addressing the fuel efficiency issue, 
and Mr. Raburn's airplane and my airplane both has a Pratt & 
Whitney 600-series powerplant on it, which is the latest 
technology and the most efficient engine out there today. It's 
probably 20 percent less fuel consumption of what the turbine 
engines of 20 years ago consumed, and it's fully electrical--
electrical, digitally controlled. We see continual movement by 
the engine manufacturers in addressing the efficiency aspect of 
fuel, along with probably what's most important, as what comes 
out the back end of the engine. The real issue--we're dealing 
with the environment and making sure that low carbons, low 
NO<INF>x</INF>, is being addressed by the engine manufacturers. 
And with our two new products, we've really made a step-
function change in that area, and we're seeing engine 
manufacturers aggressively addressing that issue.
    For the manufacture--for the engine companies to compete 
globally, they have to address that, because of the--the green 
standards in Europe, which are far more stringent than they are 
here, are going to drive where aviation goes.
    Senator Burns. Use of new materials. Are they lighter 
engines than we've known in the past?
    Mr. Raburn. Both engines are for--on a per-pound, per-
thrust basis, are about--again, about 20 percent lighter than 
previous. That's a combination of not necessarily new 
materials, but new manufacturing techniques and, to some 
extent, new materials.
    Senator Burns. In other words, you've got some--OK.
    Tell me about--we are looking at developing new fuels. We 
think we can--through coal gasification, we can build a cleaner 
and--more trending toward the green side of a jet fuel. And we 
know we can, as far as diesel is concerned, and that's a very 
close kind of operation. So, I appreciate that, and--but the 
efficiency of the engines, I think, are of primary concern, 
because of fuel costs and this type thing. And that.
    I just want to--I appreciate your testimony. I read all 
your testimony last night. And I look forward to working with 
all of you, because, as we go down this road of FAA 
reauthorization--I'll come back to that again, that I think you 
folks ought to be at the table whenever we do this, for new 
technologies and how we handle our traffic. And, there again, 
we're in the business of safety. And I appreciate your views 
and your insight on entering a new era, I think, probably in 
aviation here in this country. So I appreciate all of you.
    Mr. Andersson, I was particularly interested in yours--in 
your testimony, and I'll--I want you at the table, too, because 
you're pretty candid, and because--but I'll--but it's really 
good, though, if we have folks like you that have hands on in 
the industry, in every phase of it, as we go down this trail.
    So, I think there will be questions posed to this panel by 
other Members of this Committee. If there are, if you could 
respond to the Committee and to the individual Senators, that 
would be very good.
    We look forward in working with you. And, at this point, 
we're going to call this hearing to an end. Thank you very 
much.
    [Whereupon, at 11:40 a.m., the hearing was adjourned.]
                            A P P E N D I X

 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii
    Rapid advances in technology present both tremendous opportunities 
and significant challenges for our system of air travel. The 
introduction of hundreds, maybe thousands, of very light jets (VLJs) 
into our Nation's air space could transform the way people travel, but 
it presents challenges the Congress must address. If our policies do 
not support improvements to our system of air traffic control, the 
impact of very light jets and other new aircraft in the national 
airspace could have severe consequences for safety and air traffic 
management. Wise decisions now will allow our aerospace system and 
industry to evolve in a way that could provide significant benefits for 
American consumers and businesses.
    I am very familiar with air charter operations, which have long 
served my state of Hawaii, and the idea of introducing these new VLJs 
to develop air taxi services in targeted markets is intriguing. Yet 
this type of service is still in the planning stages and no one is sure 
how this business will develop and how great the impact of micro-jets 
will be on our airspace.
    All accounts indicate that the very first VLJs will begin to enter 
our skies by the end of this year, and we will need to pay close 
attention to how these aircraft are used and whether the system can 
handle the additional air traffic. VLJs hold a lot of promise for those 
underserved or isolated communities that have not received adequate air 
service in the past. If these new micro-jets will make remote 
communities more accessible to the rest of the country and give their 
residents better travel options, then they will serve the American 
public well.
    The Senate Commerce Committee already has begun to consider aspects 
of the Federal Aviation Administration (FAA) reauthorization 
legislation which will need to be passed during the 110th Congress. Air 
traffic modernization and FAA funding will be key components of this 
bill, and we must be certain that the National Air Space is flexible 
enough to accommodate changes in aircraft capability both in the near-
term and well into the future. The impact of new aircraft like VLJs 
will be part of this equation and will require close attention from the 
Congress.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Conrad Burns to 
                          Edward E. Iacobucci
    Question. What about convective weather in the United States. The 
FAA air traffic control system suffers huge unavoidable system delays 
that often impact all traffic in regions. How will you schedule around 
such weather interruption?JLW
    Answer. DayJet has developed an Advanced System for Real Time 
Optimization or ASTRO. Because our ``per seat--on demand'' service is 
unscheduled we dynamically manage our fleet and personnel to meet the 
needs of our customers. When weather forces changes in itineraries and 
flight plans we can adapt in real-time. The result is that as weather 
approaches or develops we change our movements to accommodate the 
weather with the least level of service disruption for passengers while 
maintaining a high fleet optimization and efficiency.
    Additionally, our routes and altitudes avoid airline traffic and 
Class B airspace so we do not add challenges for FAA Air Traffic 
Control during challenging recovery times due to weather or other 
circumstances. Our investment in the most advanced on-board technology 
allows us to be very precise on all four dimensions of flight including 
time. The result of our collaborative work with the FAA and ATC over 
the past several years will increasingly enable us to leverage the use 
satellite-based high precision approaches, precision navigation and 
precision performance to fly routes and approaches which require 
minimal workload for air traffic control under all conditions.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Conrad Burns to 
                              Vern Raburn
    Question 1. Since we are talking about new more modern ways of 
producing and operating new aircraft, do you have any recommendations 
about the FAA aircraft certification process at this point? If very 
light jet expected sales doubled as the industry study estimates, do 
you think the FAA regulatory and safety and certification process keep 
up with demand for new aircraft? If not, do you have any 
recommendations for improvements?
    Answer. There are two basic aspects to the certification process--
design approval and operational approval. The FAA has been very 
proactive in accepting the new technologies and capabilities very light 
jets deliver in the design approval process. However, a ``fear of 
jets'' mindset still plays a role in the operational approval process. 
The FAA is asking that very light jets meet higher regulatory standards 
than similarly sized propeller-driven aircraft, simply because they are 
``jets.'' Moving forward, we recommend a fundamental shift in thinking. 
Small jets should not be viewed as more complex aircraft from an 
operational perspective. Rather, they should be acknowledged as modern 
aircraft that have more reliable systems than similar propeller driven 
aircraft and are easier to operate.
    As far as the FAA keeping up with the possible growth in this 
market, we were very fortunate that the FAA committed adequate 
resources to help us achieve our goal of type certification. However, 
if the same FAA office had been forced to divide its attention between 
two similar projects at the same time, they could not have adequately 
supported both. We think there are two primary ways to address this 
problem: (1) allocate additional FAA funding to ensure adequate 
resources or (2) provide for more creative and efficient means of 
delegation.
    We believe that the FAA's pursuit of enhanced Organizational 
Delegation (ODA's) is a step in the right direction. This puts more of 
the responsibility of ``day-to-day'' certification activity on the 
manufacturer, with the FAA evolving more to an oversight organization 
that focuses on specific safety-critical items. This will require a 
cultural change with both manufacturers and within the FAA. 
Manufacturers will need to take this responsibility very seriously as 
they will be acting on behalf of the FAA. Manufacturers should be 
required to develop structured training, and a system of checks-and-
balances to ensure efficiency, effectiveness and objectivity. The FAA 
will need to adjust to not being involved in the details of 
engineering/certification activity, and successfully evolve into a 
project management organization.

    Question 2. In terms of competition with airlines, do you see your 
Eclipse customers taking customers away from airlines for complete 
(origination to destination) trips or just flying passengers from 
remote places to the air lines for connecting service? Wouldn't flying 
passengers to places where there is commercial air service put these 
aircraft in congested terminal airspaces?
    Answer. VLJ operators will not be competing directly with airlines 
at the congested hub airports. At a foundational level, air taxi 
operators would not be able to compete on a cost basis with the 
airlines if they were flying from one hub to another, or from a hub to 
a medium-size community. Existing FAA data supports this assumption, as 
general aviation operations account for only 6 percent of the 
operations at Operational Evolution Plan (OEP) 35 airports. In 
addition, there is absolutely no correlation when comparing the 20 
busiest general aviation airports to the 20 busiest airports for 
airlines. In fact, there are no airlines operating out of the 20 
busiest GA airports.
    I want to further illustrate this point by referencing Journal of 
Air Traffic Control, January-March 2006, (Attachment ``1'', page 42). 
``The VLJ business model is based on providing convenient, personal 
point-to-point services through non-congested airports. VLJ passengers 
will be time sensitive and convenience-minded, and they will use VLJs 
precisely to avoid the hassles associated with large hubs. Second, VLJ 
aircraft are specifically designed to operate from runways as short as 
3,000 feet (including many grass strips). This makes them ideal for 
providing point-to-point services to most of the 5,000+ U.S. airports 
serving small to medium sized markets.''
    Even if a VLJ operator decided to operate into a hub airport, that 
operation would not cause congestion. Once again, as detailed in the 
Journal of Air Traffic Control, January-March 2006, (Attachment ``1'', 
page 42), ``The effect of VLJ operations into hub airports will be 
minimal for a number of reasons: VLJ pilots will need adequate prior 
experience and will receive rigorous training, equivalent in many cases 
to that for commercial pilots; VLJ aircraft will have advanced 
integrated avionics to provide enhanced pilot situational awareness, 
enable seamless traffic flow integration and optimal spacing with 
commercial traffic flows; VLJs are capable of operating at speeds 
compatible to those of commercial jet aircraft throughout the terminal 
area and until well inside the final approach fix; VLJ climb and 
descent rates are compatible with commercial turbojet aircraft; VLJ 
aircraft can land and depart safely using shorter runways, unusable by 
commercial jet traffic. Even regional jets require those same longer 
runways. On intersecting runways, VLJ aircraft are capable of routine 
(LAHSO) Land and Hold Short Operations; and finally, to enhance traffic 
integration even more, new procedures that take advantage of VLJ 
performance and avionics capability can be developed.''
    Today, businesses are moving away from the coastal metropolises and 
toward the center of the country. Consequently, an increasing number of 
individuals want and need to travel from smaller communities to other 
smaller communities. Currently, these travelers face a frustrating lack 
of commercial air transportation service. If they attempt air travel, 
they are spending excessive amounts of travel time being routed through 
hubs to make connecting flights. As a result, these individuals are 
choosing one of three alternatives: (1) planning and suffering through 
a day of travel for even the shortest trips, (2) driving or (3) not 
traveling at all. Our nation is filled with communities in which 
citizens do not benefit from a convenient level of air service. As a 
result, these communities are grappling with growing citizen 
frustration, business inefficiency, dwindling business development 
opportunities and little to no economic growth.

    Question 3. You state that VLJs will not use or overtax congested 
airspace around hub airports, could you explain about how these 
aircraft will use of the rest of FAA controlled airspace both en route 
and terminal? Will these flights adversely impact this airspace? Will 
VLJ flights add to the FAA workload?
    Answer. As I stated in my testimony, the reality is that there is 
significant available airspace to accommodate these new aircraft. Under 
Administrator Marion Blakey, great progress has been made and the 
transformation to NGATS has already begun. Last year we doubled the 
capacity of airspace system between FL290 and FL410 with RVSM, 
significantly increasing the amount of space between those altitudes. 
WAAS is now a reality, and RNAV and RNP are happening. Moreover, it is 
important to note the airspace is three dimensional. This is not a two-
lane highway where you are permanently stuck behind the truck in front 
of you. VLJs are technologically advanced and nimble. They are more 
than capable of getting out of the way of faster airplanes. Moving 
around in the airspace is something airplanes do everyday, most often 
when the commercial airlines go up and down in altitude looking for a 
smooth ride.
    As stated in the Journal of Air Traffic Control, ``Commercial jet 
traffic will continue to dominate in the higher altitudes. VLJ 
operations will generally be on shorter routes under 600 statute miles 
and mainly at altitudes below those on longer-range commercial 
operations. Sometimes, especially on longer stage lengths, VLJs will 
want or need to operate at the higher altitudes, but even then VLJs 
will not disrupt en route traffic flows, even though they cruise at 
0.64 mach, slightly slower than commercial airliners. Current Flight 
Management System (FMS) technology already enables faster moving 
aircraft to establish offset tracks so as to pass slower aircraft en 
route.'' The article goes on to say, ``In the ongoing debate about the 
impact of VLJ operation, the question of VLJ speed compatibility has 
been raised frequently. In large measure, this is a red herring. The 
commercial and business fleets of today operate at a variety of climb, 
cruise, descent, and approach speeds, based not just on aircraft type, 
weight, and performance differences but also on variations in company 
policies. Even with today's 1950s ATC technology, controllers are able 
to integrate traffic of varying speeds quite efficiently, so VLJs will 
add no significant complexity.'' Journal of Air Traffic Control, 
January-March 2006, (Attachment ``1'', pages 42 & 43).
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Conrad Burns to 
                          Matthew G. Andersson
    Question 1. What is the reason why your underlying model in your 
analysis shows that over time travelers (business and others) will 
shift out of cars and commercial aircraft to on demand air taxi 
services?
    Answer. Value, pricing, disposable income, choice criteria and 
behavioral/cognitive assumptions from economic theory are among factors 
affecting consumer decisionmaking. The modes (or technologies) get 
adopted as their utility increases over time. The utility is a function 
of network effects (scale): the more users, the more valuable the 
service, the higher the utility associated with joining the network 
(this may be squared: Metcalfe V=n\2\ (square of the number of users); 
Log: Odzliko/Tully: V=n(logn) (connections vary; logarithmic); or 
exponential: Reed: number subgroups=n2-N-1 or 2Ln which grow 
exponentially (subgroups + all other connections). Utility also 
increases as user costs decrease, and which is realized when fixed 
costs are allocated over more users. Technological advances can also 
decrease cost. An illustration of a utility expression: 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Utility theory assumes that (1) users and suppliers have perfect 
information about the market; (2) they have deterministic functions 
(faced with the same options, they will always make the same choices); 
and (3) switching between alternatives is costless.

    Question 2. Looking at your first map in your testimony on the 
distribution of annual originating trips by VLJ air taxi by U.S. 
county, please explain the huge number of trips in Southern California 
and the Southwest?
    Answer. These maps indicate among other elements, the level of 
forecast trip origination to other counties by a ``gravity'' model 
structure. Factors affecting trip origination include population 
density, trading patterns, travel patterns, income and other 
socioeconomic elements. Number of trips depend on population, airport 
choice and intensity of several socioeconomics factors. The gravity 
model reflects certain relationships between places (e.g., households 
and work locations). It has been posited that the interaction between 
two locations declines with increasing distance, time, and cost between 
them, but is positively associated with the amount of activity at each 
location (Isard. 1956). Reilly (1929) formulated a ``law of retail 
gravitation'', and Stewart (1948) formulated definitions of demographic 
force, energy, and potential, now called accessibility (Hansen, 1959). 
The distance decay factor of 1/distance has been updated to a more 
comprehensive function of generalized cost, which is not necessarily 
linear--a negative exponential tends to be the preferred form. In 
analogy with Newton's law of gravity, a gravity model is often used in 
transportation planning. The rate of decline of the interaction (called 
alternatively, the impedance or friction factor, or the utility or 
propensity function) has to be empirically measured, and varies by 
context. While the gravity model is very successful in explaining the 
choice of a large number of individuals, the choice of any given 
individual varies greatly from the predicted value. As applied in an 
urban travel demand context, the disutilities are primarily time, 
distance, and cost, although discrete choice models with the 
application of more expansive utility expressions are sometimes used, 
as is stratification by income or auto ownership (ref: GNU 
documentation/license).
    Mathematically, the gravity model can take the form:

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Question 3. How does that compare to today in that area? What do 
you think accounts for the increase in air taxi trips?
    Answer. The map does not indicate current or historic trip 
origination. The forecast in part reflects economic relationships 
between counties; over time these may change.
                                 ______
                                 
  Prepared Statement of The Air Transport Association of America, Inc.
I. Introduction
A. ATA Introduction and Purpose
    The airspace system in the United States is fast approaching a 
critical point. Several very decisive factors are in plain view; they 
will profoundly affect the system and its future ability to serve 
users. First, the system must be modernized. Existing and anticipated 
satellite-based navigation and communications technologies must be 
leveraged to improve the efficiency of the system and its ability to 
accommodate substantial new demand for air traffic services. Second, an 
equitable way to fund those system improvements must be developed. 
Third, the impact on the system of the much-anticipated introduction of 
great numbers of very light jets (VLJs) must be evaluated and dealt 
with. It is this last matter--the airspace implications of this new 
category of system user--that is the subject of our statement.
    The Air Transport Association of America, Inc. (ATA) is the 
principal trade and service organization of the U.S. airline industry, 
and its members \1\ transport over ninety percent of U.S. airline 
passenger and cargo traffic. As of June 30, 2006, ATA member airlines 
were operating a fleet of 4,316 airplanes.
---------------------------------------------------------------------------
    \1\ Members are: ABX Air, Alaska Airlines, Aloha Airlines, American 
Airlines, ASTAR Air Cargo, ATA Airlines, Atlas Air, Continental 
Airlines, Delta Air Lines, Evergreen International Airlines, Federal 
Express Corporation, Hawaiian Airlines, JetBlue Airways, Midwest 
Airlines, Northwest Airlines, Southwest Airlines, United Airlines, UPS 
Airlines and US Airways. Associate members are: Aerovias de Mexico, Air 
Canada, Air Jamaica and Mexicana de Aviacion.
---------------------------------------------------------------------------
    As a key stakeholder in our Nation's aviation system, ATA 
respectfully submits these comments to the Aviation Subcommittee of the 
Senate Committee on Commerce, Science, and Transportation.
B. ATA Member Airlines Enable our Nation's Economic Engine
    The U.S. civil aviation sector (including air transportation, 
related manufacturing and air-based travel and tourism) was 
collectively responsible for $1.37 trillion of national output (i.e., 
economic activity) in 2004, supporting 12.3 million U.S. employees and 
$418 billion in personal earnings. Commercial aviation accounts for the 
majority of this impact with $1.2 trillion in output, $380 billion in 
earnings and 11.4 million jobs.
    The national economy is highly dependent on commercial aviation, 
which, in 2004, was directly or indirectly responsible for 5.8 percent 
of gross output, 5.0 percent of personal earnings and 8.8 percent of 
national employment. \2\
---------------------------------------------------------------------------
    \2\ The total impact of commercial aviation is compared to national 
aggregates of Gross Outputs and Personal Earnings (from the Bureau of 
Economic Accounts) and Total Covered Employment (from the Bureau of 
Labor Statistics) for the 50 states and the District of Columbia 
combined.
---------------------------------------------------------------------------
    These extraordinary economic benefits could not have been generated 
without an aviation infrastructure that enables air carriers to provide 
the services that passengers and shippers demand. Any changes to our 
Nation's aviation system, such as the introduction and proliferation of 
a new and different aircraft type, must be carefully assessed to ensure 
that the public continues to benefit from a safe, healthy aviation 
system.
C. The Introduction of VLJs Will Affect All National Airspace System 
        Stakeholders
    The introduction of VLJs into the National Airspace System (NAS) 
constitutes a significant change and will have far reaching and--at 
this point--not entirely known consequences. What we do know is that 
their impact will eventually be felt by all stakeholders, including 
airlines, FAA, manufacturers, Fixed Base Operators (130s) and many 
others. However this plays out, stakeholders share an obligation to 
ensure that their introduction does not jeopardize the unparalleled 
efficiency and safety of our NAS.
II. Overview of Very Light Jets
A. What is a Very Light Jet?
    A VLJ, also called a microjet or personal jet, is generally defined 
as a technologically advanced, high-performance turbine engine-powered 
aircraft weighing 10,000 pounds or less (maximum certificated takeoff 
weight) and certificated for single pilot operations. These aircraft 
will feature advanced cockpit automation, such as moving map GPS and 
multi-function displays, automated engine and systems management, and 
integrated autoflight, autopilot and flight-guidance systems.
    The cost of VLJs, somewhere in the range of $1.0M to $3.0M, places 
them well within the reach of many businesses and individuals.
B. Manufacturers and Models
    FAA estimates that there are presently some 20 models of VLJs in 
various stages of design, certification and production. Exhibit 1 
highlights a sampling of VLJs.

           Exhibit 1. Sample of Very Light Jets in Development
------------------------------------------------------------------------
       Name             Company            Orders        First Delivery
------------------------------------------------------------------------
Eclipse 500        Eclipse Aviation   2,111 as of July  2006
                                       2004
Mustang            Cessna             250 as of June    2006
                                       2004
Adam700            Adam Aircraft      77 as of July     2006
                                       2004
EMB-VLJ            Embraer            Not Disclosed     2008
Epic LT            Epic               Not Disclosed     Not Available
HondaJet           Honda              Pending           Pending
                                       Commitment        Commitment
D-Jet              Diamond Aircraft   Not Disclosed     2006
------------------------------------------------------------------------

C. Performance: Not Your Father's Airplane
    VLJs will offer performance comparable to high-end business jets at 
a fraction of the price. They will be capable of operating from shorter 
runways than commercial airliners and larger business jets, enabling 
them to utilize a large number of airports.
    VLJs will be certificated to operate at maximum altitudes of 
roughly 41,000 feet, enabling them to join commercial airliners and 
business jets in competing for finite en route airspace. Unfortunately, 
VLJs will have maximum cruise speeds at those altitudes that are 
significantly slower than other aircraft (380 knots versus 550 knots). 
This difference in cruising speed will pose a potentially significant 
airspace management issue. They will have a range of roughly 1,200 
nautical miles and carry up to four passengers.
D. Expected Uses
    Current and projected aircraft orders illustrate two primary 
categories of VLJ buyer. The first is an individual who plans to use 
the aircraft for recreational transportation. The second, and much 
larger segment of buyer, is that which involves transporting passengers 
conducting business between major metropolitan areas. It is important 
to note that while VLJs will frequently utilize secondary airports, 
those airports are typically near--and share the airspace above--major 
metropolitan areas.
E. Projected Deliveries
    Predictions regarding the number of VLJ deliveries vary from source 
to source. FAA predicts roughly 4,000 aircraft deliveries over the next 
10 years, while others put the number at twice that. NASA translated 
their projections into flight activity and estimates that VLJs could 
account for 20,000 flights daily by the end of the 10-year period.
    While aviation industry experts may debate the actual number of 
aircraft eventually ordered, most agree that VLJs will appear in 
sufficient numbers to significantly increase demand on an already 
strained air traffic control system.
III. Economic Implications
    The early interest in VLJs clearly illustrates the demand in the 
marketplace for an aircraft with its capabilities. It appears to fill 
the void between conventional piston aircraft and high-end business 
jets at a price considered reasonable by its buyers.
    Clearly the VLJ manufacturers and their suppliers stand to benefit 
from the sale of these new aircraft. Furthermore, the downstream 
activities linked to the operation and support of these aircraft will 
increase access and revenue to smaller airports. VLJs will drive new 
business for FBOs due to demand for storage, fuel, maintenance and 
related services.
    Using VLJs, air taxi operators could open access to new business 
centers that previously were beyond the reach of available aircraft. 
This new access could generate new markets and opportunities resulting 
in further economic benefit.
    At the same time, any incremental economic benefits would be 
quickly erased if the introduction of VLJs leads to an increase in 
airspace congestion. The airspace above major metropolitan areas is 
already or rapidly becoming congested, and any further increase in 
demand would cause an increase in delays for all users.
    Delays are especially expensive to airlines and their customers. 
The Department of Transportation has estimated that delays cost U.S. 
airline passengers $9.4 billion in 2005. In addition to those direct 
costs to passengers, delays cost airlines an estimated $62 per minute 
in direct (i.e., aircraft) operating costs. Applied to the 94.1 million 
cumulative delay minutes recorded in 2005 reveals $5.9 billion in 
industry costs. Combining the passenger and airline costs produces a 
U.S. economic cost of $15.3 billion or $484 every second.
IV. Implications for Our National Airspace System
A. VLJs Will Place Additional Demands on an Already Constrained ATC 
        System
    The existing U.S. ATC system is based on vintage 1950s design 
concepts that can no longer be efficiently expanded to meet future 
demand. As the number of aircraft using the system increases, 
congestion will worsen resulting in artificial limits on demand--access 
to our Nation's airspace will be restricted to prevent total gridlock. 
Industry experts \3\ have expressed concern over the ability of the ATC 
system to accommodate growing demands:
---------------------------------------------------------------------------
    \3\ Vaughn Cordle and Robert W. Poole, Jr., ``Resolving the Crisis 
in Air Traffic Control Funding,'' 2005.

        ``The non-airline turbine powered fleet is much larger than the 
        air carrier turbine-powered fleet. And the total turbine-
        powered fleet is projected by FAA to increase by 49 percent 
        over the next 11 years, putting considerable stress on the ATC 
---------------------------------------------------------------------------
        system.''

    It isn't hard to imagine a system where access to airspace is 
rationed. That is precisely what exists today at New York's LaGuardia 
and Chicago's O'Hare airports. Congested airspace above New York and 
South Florida threatens to force further restrictions. It is critical 
to note that capacity limitations are not necessarily tied to a lack of 
runway or terminal capacity. More and more, airport accessibility is 
driven by the ability of the airspace above to accommodate the traffic. 
For example, VLJs attempting to access Fort Lauderdale Executive 
Airport may be blocked by saturated airways even though the airport 
itself could handle the traffic.
    Integrating VLJs into the current ATC system will present 
challenges for FAA and existing users. VLJs will be incompatible with 
existing aircraft using high-altitude airspace because they cruise at 
significantly slower speeds. Introducing VLJs into these routes is 
analogous to allowing tractors on a freeway. Air traffic controllers 
would be faced with an increased level of complexity. This increasingly 
complex environment translates into increased controller workload, 
leading to excessive and inefficient aircraft separation.
    Clearly it is in the best interest of VLJ operators and all other 
users of our Nation's airspace system to collaborate in building a 
system that safely, efficiently and equitably accommodates all users. 
Vern Raburn, President and CEO of VLJ manufacturer Eclipse Aviation, 
clearly recognizes the importance of NAS transformation on the success 
of his business:

        ``In my opinion, we need to be asking and answering the hard 
        questions that will lead to implementation of a next-generation 
        distributed ATC system. And we should be doing it sooner, 
        because later is already here.'' \4\
---------------------------------------------------------------------------
    \4\ Vern Raburn, President and CEO, Eclipse Aviation, October 15, 
2005.

    Unfortunately, the revenue collected by FAA will not cover their 
costs to provide ATC services to VLJ operators and will fall far short 
of the amount needed to finance NAS modernization. FAA will be faced 
with significantly increasing demand for services without a 
corresponding increase in revenue. To illustrate the problem caused by 
today's FAA funding mechanism, consider that a typical 737 commercial 
airliner flying from New York to Fort Lauderdale pays $1,506 \5\ toward 
funding FAA, while an Eclipse 500 corporate VLJ on an identical route 
using the same ATC services pays only $53. \6\ Based on an analysis of 
FAA's cost data, ATA estimates that it costs FAA approximately $781 to 
provide those services.
---------------------------------------------------------------------------
    \5\ Commercial airliner tax revenue based on passenger, cargo and 
fuel taxes, and assumes 70 percent load factor. Cargo and fuel taxes 
derived from DOT Form 41.
    \6\ Corporate VLJ tax revenue based on Part 91 operation and 
assumes full fuel load at departure.
---------------------------------------------------------------------------
B. VLJs Could Introduce New Operational and Safety Risks
    Historically, the cruise performance capabilities of the aircraft 
operated by the various segments of the aviation community naturally 
segregated them into distinct operating environments. Larger, faster 
aircraft (like business jets and commercial airliners) typically cruise 
above 28,000 feet, while piston-driven recreational and on-demand 
charter aircraft primarily operate at lower altitudes.
    VLJ performance will blur the lines between the blocks of airspace 
conventionally used by the different types of operators. VLJ operators 
will be able to climb to and cruise at altitudes that previously were 
inaccessible due to the performance limitations of their previous 
aircraft.
    While the impact of VLJs on the airport terminal airspace 
environment will be more a function of the number of operations rather 
than an issue of compatibility, the FAA must assess a broad array of 
integration considerations. Approach and departure patterns, wake 
turbulence interaction and ramp congestion are but a few.
    In recognizing that the potential will exist for relatively 
inexperienced pilots to be operating high-tech aircraft in a complex 
and challenging environment, the FAA must ensure that current training, 
experience and medical standards are adequate to ensure the continued 
safety of the system.
C. VLJs Will Consume Limited FAA Resources
1. Initial Certification
    With some 20 VLJ models in various phases of certification, FAA is 
applying significant resources in an effort to support manufacturers' 
production and delivery schedules. While some certification work is 
handled indirectly by FAA through the designees, the direct burden on 
FAA is significant. FAA resources allocated to VLJ certification 
efforts delay other certification activity.
2. Ongoing Safety and Regulatory Oversight
    After certification of the aircraft, FAA is responsible for 
ensuring that the users of VLJs comply with Federal regulations 
applicable to their use of the aircraft. While oversight of individuals 
flying VLJs recreationally is relatively straightforward, oversight of 
large air taxi operators operating hundreds of aircraft is a complex 
and resource-intensive effort. In recent testimony before the House 
Aviation Subcommittee, the GAO observed that:

        ``Meeting the challenges posed by recent safety trends and 
        program changes will be exacerbated by other changes in human 
        capital management; the acquisition and operation of new safety 
        enhancing technologies; and new types of vehicles, such as very 
        light jets (VLJ), that may place additional workload strains on 
        FAA inspectors and air traffic controllers.'' \7\
---------------------------------------------------------------------------
    \7\ U.S. Government Accountability Office, Testimony before the 
Subcommittee on Aviation, Committee on Transportation and 
Infrastructure, House of Representatives, GAO-06-1091T.

3. Air Traffic Control
    The performance of VLJs and their apparent incompatibility with 
existing traffic in the terminal and en route environment will make air 
traffic control more challenging. Mixing fast and slow traffic on high-
altitude routes, as described previously, increases controller 
workload. Sequencing large and small aircraft in terminal areas to 
reduce the effect of wake turbulence adds complexity for controllers. 
In limited cases, FAA may be able to respond by adding additional 
controllers. The more common response will be to increase spacing to 
manage the difference in aircraft speeds and reduce workload. This 
results in wasted capacity and ultimately constraints on demand.
    In the July 2005 issue of Flight Safety Digest, the director of 
safety and technology for the National Air Traffic Controllers 
Association, and a former controller, identified the relatively low 
cruising speeds of VLJs as the biggest concern for controllers:

        ``The biggest impact most likely will be in the en route 
        environment . . . In the upper flight levels, speed will be an 
        issue''

    He also expressed concern that VLJs will have an impact similar to 
other, relatively slow aircraft:

        ``The early (Cessna) Citations are already an issue for us. As 
        a controller, you have to be aware of their slower speeds so 
        that you don't run them down. The very light jets are going to 
        create the same issue if they're put into the same flow with 
        commercial aircraft . . . I don't think the VLJs will mix in 
        well with the flow that we have today.''

4. Use of Flight Service Stations
    The introduction of VLJs, or any aircraft other than those used by 
large commercial air carriers, will drive a proportionate increase in 
the use of Flight Service Stations (FSS). FSS provide flight planning, 
weather and other related services to pilots free of charge. As the 
number of users increases, so will the demand on FSSs. Unlike general, 
corporate and business aviation users, commercial airlines typically do 
not use FSSs.
V. Unmanned Aerial Vehicles Must Also Be Considered
    An issue closely related to the introduction of VLJs is that of 
unmanned aerial vehicles (UAVs). While not the focus of this particular 
hearing, ATA is concerned about the aggressive pace of their 
introduction into the NAS. Although most are used in military 
applications today, UAVs are rapidly being deployed in a variety of 
non-military surveillance roles.
    Unfortunately, the nature and capabilities of most UAVs today, 
combined with operators' apparent limitations in handling UAVs, require 
that large blocks of valuable airspace be quarantined when UAVs are in 
use. Clearly this approach is not a viable, long-term solution.
    The aviation industry will continue to work collaboratively to 
develop certification standards and operational procedures that will 
allow UAVs to be safely integrated into the NAS.
VI. Summary
    VLJs are an exciting innovation and a testament to the capabilities 
of the U.S. aircraft manufacturers. Their long-term viability, however, 
will be governed by the ability of our National Airspace System to 
safely and efficiently accommodate them.
    ATA believes that the successful integration of VLJs hinges on the 
following:

  <bullet> FAA must ensure that robust standards are in place for 
        certification, operation and training.

  <bullet> FAA must segregate incompatible traffic to streamline flows.

  <bullet> FAA must employ a reliable and equitable funding mechanism 
        that links revenues to costs.

  <bullet> FAA must use that revenue to create capacity through 
        modernization of the ATC system.

    ATA will continue to advocate a safer, smarter and fairer system 
that satisfies the current needs of all users while scaling to meet 
future demand.
                                 ______
                                 
              Prepared Statement of Honda Aircraft Company
    Mr. Chairman and Members of the Aviation Subcommittee:
    Thank you for the opportunity to submit a statement for the record 
on the September 28, 2006 hearing entitled. ``New Entrants Into the 
National Airspace System.''
    On July 25, 2006, Honda announced its intention to introduce the 
innovative HondaJet into the very light jet (VLJ) market. The HondaJet 
is the culmination of more than 20 years of aviation research, 
development and testing to validate our technology. The initial test 
flight took place in December 2003 and more than 240 hours of test 
flights have occurred between December 2003 and July 2006. Production 
of the HondaJet will occur in the U.S. with specific details on 
location and timing to be announced in the future.
    The design specifications of the HondaJet are as follows:

        Seating: 6 to 8.

        Length<greek-e>Width<greek-e>Height: 
        41.7<greek-e>39.9<greek-e>13.2 ft.

        Maximum Speed: 420 knots.

        Operational Ceiling: 41,000 ft.

        Range: 1,100 nautical miles.

    The HondaJet has several significant technological innovations that 
help it to achieve superior fuel economy, a larger cabin and more 
luggage base, and a higher cruising speed compared with other aircraft 
in its class.
    The HondaJet has a natural-laminar flow (NLF) wing and fuselage 
nose that allows it to have a low drag coefficient along with a high 
lift coefficient. These were developed through extensive analyses and 
wind tunnel testing including sessions at the Boeing and NASA test 
facilities.
    The HondaJet's patented over-the-wing mounted engines have the 
advantage of eliminating the need for significant structures to mount 
the engines to the rear fuselage. This in turn maximizes space for 
passengers and luggage. In addition, this design feature reduces drag 
at high speeds resulting in improved fuel economy.
    The all-composite fuselage of the HondaJet consists of honeycomb 
sandwich structures and stiffened panels. These reduce both weight and 
manufacturing costs.
    The flight deck is all glass state-of-the-art with integrated 
avionics and digital graphics on a high resolution flat screen display. 
The HondaJet also has an autopilot function.
    In August 2006, Honda announced the formation of Honda Aircraft 
Company, based in Greensboro, NC. Honda Aircraft Company will be 
responsible for getting FAA type certification and production 
certification. The new company will also be responsible for taking 
sales orders beginning this fall as well as carrying out marketing 
activities.
    Honda has formed a business alliance with Piper Aircraft. Inc. to 
collaborate on sales and service. The alliance will also look for new 
opportunities in the areas of engineering as well as general and 
business aviation.
    The goal of our aviation endeavor, consistent with our other Honda 
products, is to provide convenient and efficient transportation to 
improve the quality of life for our customers. The entry of the 
HondaJet expands the list of mobility products Honda has to offer.
    Honda is one the world's leading producers of mobility products 
including its diverse line-up of automobiles, motorcycles and ATVs, 
power products, marine engines and personal watercraft. Honda is the 
world's preeminent engine-maker, with annual worldwide production of 
more than 20 million engines. Honda began assembling motorcycles in the 
U.S. in 1979, with U.S. automobile manufacturing starting in 1982. We 
currently have 10 manufacturing plants in the U.S. with a workforce of 
more than 29,000 associates.
    Thank you for the opportunity to submit this statement. We look 
forward to working with the Committee.

    A copy of the article, The Business Jet Market: Here to Stay, by 
Richard Aboulafia, from the April 2006 issue of World Military & Civil 
Aircraft Briefing has been retained in Committee files.

                                  <all>

</pre></body></html>
